<html>
<title> - H. CON. RES. 427, A RESOLUTION EXPRESSING THE SENSE OF THE CONGRESS REGARDING SANCTIONS ON NATIONS UNDERMINING ATLANTIC MARLIN CONSERVATION AND MANAGEMENT MEASURES</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
 H. CON. RES. 427, A RESOLUTION EXPRESSING THE SENSE OF THE CONGRESS 
      REGARDING SANCTIONS ON NATIONS UNDERMINING ATLANTIC MARLIN 
                 CONSERVATION AND MANAGEMENT MEASURES
=======================================================================


                          LEGISLATIVE HEARING

                               before the

      SUBCOMMITTEE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                           September 26, 2002

                               __________

                           Serial No. 107-154

                               __________

           Printed for the use of the Committee on Resources




 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov

                                 _______


                       U. S. GOVERNMENT PRINTING OFFICE
81-890                         WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001















                         COMMITTEE ON RESOURCES

                    JAMES V. HANSEN, Utah, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska,                   George Miller, California
  Vice Chairman                      Edward J. Markey, Massachusetts
W.J. ``Billy'' Tauzin, Louisiana     Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Peter A. DeFazio, Oregon
Elton Gallegly, California           Eni F.H. Faleomavaega, American 
John J. Duncan, Jr., Tennessee           Samoa
Joel Hefley, Colorado                Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Scott McInnis, Colorado              Calvin M. Dooley, California
Richard W. Pombo, California         Robert A. Underwood, Guam
Barbara Cubin, Wyoming               Adam Smith, Washington
George Radanovich, California        Donna M. Christensen, Virgin 
Walter B. Jones, Jr., North              Islands
    Carolina                         Ron Kind, Wisconsin
Mac Thornberry, Texas                Jay Inslee, Washington
Chris Cannon, Utah                   Grace F. Napolitano, California
John E. Peterson, Pennsylvania       Tom Udall, New Mexico
Bob Schaffer, Colorado               Mark Udall, Colorado
Jim Gibbons, Nevada                  Rush D. Holt, New Jersey
Mark E. Souder, Indiana              Anibal Acevedo-Vila, Puerto Rico
Greg Walden, Oregon                  Hilda L. Solis, California
Michael K. Simpson, Idaho            Brad Carson, Oklahoma
Thomas G. Tancredo, Colorado         Betty McCollum, Minnesota
J.D. Hayworth, Arizona               Tim Holden, Pennsylvania
C.L. ``Butch'' Otter, Idaho
Tom Osborne, Nebraska
Jeff Flake, Arizona
Dennis R. Rehberg, Montana

                      Tim Stewart, Chief of Staff
           Lisa Pittman, Chief Counsel/Deputy Chief of Staff
                Steven T. Petersen, Deputy Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                

       SUBCOMMITTE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                 WAYNE T. GILCHREST, Maryland, Chairman
           ROBERT A. UNDERWOOD, Guam, Ranking Democrat Member

Don Young, Alaska                    Eni F.H. Faleomavaega, American 
W.J. ``Billy'' Tauzin, Louisiana         Samoa
Jim Saxton, New Jersey,              Neil Abercrombie, Hawaii
  Vice Chairman                      Solomon P. Ortiz, Texas
Richard W. Pombo, California         Frank Pallone, Jr., New Jersey
Walter B. Jones, Jr., North 
    Carolina















                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on September 26, 2002...............................     1

Statement of Members:
    Gilchrest, Hon. Wayne T., a Representative in Congress from 
      the State of Maryland......................................     1
        Prepared statement of....................................     2

Statement of Witnesses:
    Dunn, Russell, Assistant Director, Ocean Wildlife Campaign, 
      The Audubon Society........................................    40
        Prepared statement of....................................    42
    Graves, Dr. John, Chairman, Department of Fisheries Science, 
      Virginia Institute of Marine Science, and Chairman, ICCAT 
      Advisory Committee.........................................    12
        Prepared statement of....................................    14
    Hayes, Robert G., Counsel, Coastal Conservation Association 
      and ICCAT Recreational Sector Commissioner.................     6
        Prepared statement of....................................     8
    Hemilright, Dewey, Captain, F/V Tar Baby, Commercial Longline 
      Vessel.....................................................    36
        Prepared statement of....................................    38
    Hogarth, Dr. William T., Assistant Administrator for 
      Fisheries, National Oceanic and Atmospheric Administration, 
      U.S. Department of Commerce................................     3
        Prepared statement of....................................     4
    Johnson, Gail L., Shore Captain of the F/V Seneca, Commercial 
      Longline Vessel............................................    28
        Prepared statement of....................................    30
    Motsko, James, President, White Marlin Open..................    25
        Prepared statement of....................................    27
    Weber, Rick, Marina Owner and Manager, South Jersey Marina & 
      Yacht Sales................................................    32
        Prepared statement of....................................    34

Additional materials supplied:
    World Wildlife Fund, Press statement submitted for the record    52




















 LEGISLATIVE HEARING ON H. CON. RES. 427, A RESOLUTION EXPRESSING THE 
SENSE OF THE CONGRESS REGARDING THE IMPOSITION OF SANCTIONS ON NATIONS 
 THAT ARE UNDERMINING THE EFFECTIVENESS OF CONSERVATION AND MANAGEMENT 
 MEASURES FOR ATLANTIC MARLIN ADOPTED BY THE INTERNATIONAL COMMISSION 
FOR THE CONSERVATION OF ATLANTIC TUNAS (ICCAT) AND THAT ARE THREATENING 
 THE CONTINUED VIABILITY OF UNITED STATES COMMERCIAL AND RECREATIONAL 
                               FISHERIES.

                              ----------                              


                      Thursday, September 26, 2002

                     U.S. House of Representatives

      Subcommittee on Fisheries Conservation, Wildlife and Oceans

                         Committee on Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to call, at 2 p.m., in room 
1324, Longworth House Office Building, Hon. Wayne T. Gilchrest 
[Chairman of the Subcommittee] presiding.
    Mr. Gilchrest. The Subcommittee will come to order.
    There are a couple of members that probably will be here 
eventually, but we might as well get started; and I ask 
unanimous consent that my statement be included in the record.

 STATEMENT OF THE HON. WAYNE T. GILCHREST, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MARYLAND

    Mr. Gilchrest. We are here today to discuss a resolution 
dealing with--initially, at any rate, dealing with the issue of 
white marlin and the role of the United States in ICCAT and the 
role of Congress in this issue of conservation of highly 
migratory species and determining whether or not our resolution 
as proposed is sufficient to bring about a change in the 
conservation ethic and effort on the part of not only ICCAT 
countries but nations around the world. To do that, we are 
proposing that the U.S. delegation, this administration, use 
trade sanctions as a tool.
    We also realize that that is already a tool in the tool 
box, but to list this particular issue of highly migratory 
species and, in particular, white marlin as an issue that the 
United States is interested in, too, in my estimation will 
buttress the American delegation position with ICCAT in a much 
more firm manner. Not using a heavy hand, but I think using the 
concept of conservation as a partner with the international 
community to ensure the oceans' abundance, based on a 
scientific understanding of highly migratory species and the 
ecosystem.
    I think this Congress needs to take an active role in 
ensuring that, since our commercial and recreational fishing 
communities lead the world in their conservation effort, in 
their fishing effort, that they should not be penalized by 
other countries that don't comply with the same types of 
regulations. That, in fact, the U.S. can lead the world in 
helping develop more abundant fish stocks with these 
conservation proposals.
    Our resolution was dropped, as you have probably all read, 
using white marlin as the priority. But, as your testimony 
attests to, it is not and should not be the only priority of 
the United States; and it should not be the only priority of 
ICCAT. So we look forward to your testimony to help us 
understand your views and will likely expand the context of the 
resolution before it hits the House floor, which we would like 
to see that done in the next couple of weeks.
    [The prepared statement of Mr. Gilchrest follows:]

Statement of Chairman Wayne T. Gilchrest, a Representative in Congress 
                       from the State of Maryland

    It's a pleasure for me to welcome all of our witnesses to this 
legislative hearing on H. CON. RES. 427, expressing the sense of 
Congress that trade sanctions should be imposed on Nations that 
undermine the effectiveness of the International Commission for the 
Conservation of Atlantic Tunas--ICCAT--management measures.
    Multiple viewpoints and backgrounds are represented here today, 
with fishermen, ocean advocacy groups, the regulators, and their 
advisors, seated at the table to discuss this most important issue. I'm 
also particularly pleased that Mr. James Motsko from the White Marlin 
Capital of the World, Ocean City Maryland--in my own district--is able 
to join us today.
    The problem we're examining is how to best deal with white marlin 
stocks that are severely depleted and continuing to decline. It is 
estimated that their levels are currently at only 5-15% of the carrying 
capacity, and that they are being harvested at about 7 times the level 
that would sustain a healthy population.
    It is widely recognized that white marlin are being over-
harvested--but, the reality is that 95 percent of that harvest is by 
other countries. Already in the U.S. we have the cleanest and most 
regulated longline fishery in the world and we have already eliminated 
commercial harvests of white marlin and instituted time-area closures 
to limit potential interaction with them.
    White marlin range across the Atlantic, so this is not simply a 
domestic issue. ICCAT member nations other than the U.S. retain 95 
percent of the documented catch, but at least these harvests are known. 
Besides this large documented catch, illegal, unreported and 
unregulated fishing by ICCAT members and non-member countries is taking 
a serious toll on marlin and many other valuable fish species.
    Many feel that ICCAT is not doing enough to protect the white 
marlin and other species under its management, and that when action 
finally does come, it is toothless and has no consequences. I agree 
with that assessment. Trade sanctions by the U.S. represent a powerful 
tool in the arsenal against both non-compliant countries and countries 
whose vessels are conducting IUU fishing. This resolution proposes to 
use all mechanisms at our disposal to dissuade countries from 
participating in these activities and be in full compliance with ICCAT 
resolutions. H. Con. Res. 427 states clearly that the U.S. recognizes 
there is a real problem here and we consider it important enough to 
take direct action.
    Due to your expertise with these issues, we are asking for your 
opinion on this resolution. We look forward to hearing your views and 
suggestions on how to improve this important piece of legislation, and 
to use this legislation to urge countries to comply with ICCAT 
management measures.
                                 ______
                                 
    Mr. Gilchrest. Dr. Hogarth, Mr. Hayes and Dr. Graves, thank 
you very much for coming this afternoon; and we look forward to 
your testimony.
    Mr. Gilchrest. Dr. Hogarth, you may begin, sir.

   STATEMENT OF WILLIAM HOGARTH, ASSISTANT ADMINISTRATOR FOR 
FISHERIES, NATIONAL MARINE FISHERIES SERVICE AND ICCAT FEDERAL 
                    GOVERNMENT COMMISSIONER

    Mr. Hogarth. OK. Thank you, Mr. Chairman and members of the 
Subcommittee. I appreciate the opportunity to be here today to 
talk about House Concurrent Resolution 427.
    Also, I would like to take the opportunity to thank you and 
other members for your continuing involvement in the 
conservation of our living marine resources. We as an agency 
really appreciate your interest.
    I am Bill Hogarth, the Assistant Administrator for 
Fisheries for the National Oceanic and Atmospheric 
Administration. I know I am most of the time very difficult to 
understand, and today I may be even a little more so because I 
have been suffering from a sinus problem, so I'll try to speak 
a little slower to make sure you understand.
    Although I have been familiar with the international aspect 
of highly migratory species management for a number of years, 
the 2002 meeting of the International Commission for the 
Conservation of Atlantic Tunas, or ICCAT, will mark my first as 
a U.S. Commissioner; and I look forward to leading the US 
delegation at the meeting this October.
    We have two very capable commissioners that will be going 
with me, plus a very good delegation. The Recreational 
Commissioner is sitting next to me, Bob Hayes; and Glen Delaney 
is the Commercial Commissioner.
    With respect to marlin, the United States has successfully 
pursued increasingly stringent conservation and management 
measures at ICATT; and this has not been an easy feat, 
considering the majority of marlin harvested are taken by 
nontarget species in other, more lucrative tuna and swordfish 
fisheries that are spread among a large number of international 
fleets. The first binding measure ICCAT adopted required a 25 
percent reduction in the marlin landings from 1996 levels by 
1999. These reductions were to be maintained through the year 
2000.
    Although not all ICCAT members were able to meet the 
landings reduction targets for white marlin, by the year 2000 
the overall landings of species had declined by 35 percent. 
Most recently, ICCAT adopted a rebuilding plan for marlins. The 
first phase of the plan requires additional landing reductions. 
White marlin landings are to be reduced 67 percent from the 
1999 level and blue marlin by 50 percent.
    It is too soon to tell whether or not these landing 
reductions have been achieved since they only went into effect 
last year. We have, however, received very encouraging 
information from Japan, Brazil and the EC and others with 
significant longline fleets that have taken steps to implement 
the required reductions. In fact, Brazil has even gone so far 
as to institute a ban on the trade of marlin.
    Regarding compliance, the United States has been pursuing 
state-of-the-art measures to ensure ICATT and its members abide 
by their commitments. Among other things, these compliance 
rules require that quota overharvests are paid back and that 
quota penalties, including trade measures, are assessed for 
consecutive quota violations in certain cases. Further, ICCAT 
has developed approaches designed to encourage nonmember 
cooperation with ICCAT conservation and management measures. 
These measures can and have resulted in the imposition of trade 
measures against both ICCAT member and nonmember countries and 
they, together with other innovative approaches taken by ICCAT, 
have been effective in helping to address illegal, unregulated 
and unreported fishing for Atlantic highly migratory species. 
The United States fully supports the use of multilateral trade 
measures to further conservation goals. Since we are a major 
importer of certain ICCAT species--in particular, the 
swordfish--we are a key player in that implementation.
    Even with the progress ICCAT has made on these and other 
issues, challenges remain. We are currently considering new 
steps that we can take at ICCAT this year to address not only 
marlin conservation and compliance issues but a host of other 
important matters such as bluefin tuna and swordfish 
management, allocation issues and fishery monitoring issues. In 
this regard, we welcome the attention Congress is giving to the 
ICCAT issues that are evidenced by Congressional Resolution 
427. The good intentions and spirit behind the resolution are 
clear, and in that respect we are very supportive of it.
    We do believe, however, that the language is too narrowly 
focused in some instances, particularly given the large level 
of important issues to be faced at ICCAT this year. It would be 
useful to recognize in the resolution that progress on 
compliance matters, including addressing illegal, unregulated 
and unreported fishing has been made and should continue to be 
a priority. We would be glad to work with you and your staff to 
develop language on this and other areas in the resolution that 
may need clarification or technical corrections.
    Mr. Chairman, this concludes my testimony. Once again, 
thank you for the opportunity to be here today; and thank you 
again for your interest. I look forward to answering any 
questions you or the members may have.
    Mr. Gilchrest. Thank you, Dr. Hogarth.
    [The prepared statement of Mr. Hogarth follows:]

  Statement of William T. Hogarth, Ph.D., Assistant Administrator for 
   Fisheries, National Oceanic and Atmospheric Administration, U.S. 
                         Department of Commerce

    Mr. Chairman and members of the Subcommittee, thank you for 
inviting me to testify before the Subcommittee regarding House 
Concurrent Resolution 427. I am Dr. William T. Hogarth, Assistant 
Administrator for Fisheries for the National Oceanic and Atmospheric 
Administration (NOAA). In this testimony, I will be commenting on House 
Concurrent Resolution 427, a resolution concerned with the conservation 
and management of Atlantic highly migratory species.
    I would like to begin by making a few general remarks. Although I 
have been familiar with the international aspects of highly migratory 
species management for a number of years, the 2002 meeting of the 
International Commission for the Conservation of Atlantic Tunas (ICCAT) 
will mark my first as a U.S. Commissioner. I am looking forward to 
leading the U.S. delegation at the meeting this October. The United 
States is committed to the effective functioning of ICCAT. Practically 
speaking, it is the only viable means we have to conserve and manage 
Atlantic highly migratory species and to ensure future fishing 
opportunities for all U.S. fishermen.
    It has become increasingly clear over the years that the issues 
facing ICCAT are not only increasing in number, but they are also 
increasing in complexity. The 2002 ICCAT meeting may prove to be the 
busiest and most complicated yet. Marlin conservation and compliance 
are two of the complex issues we will be addressing at ICCAT this fall. 
The United States has faced these important issues repeatedly at ICCAT 
over the years, and we have made some notable progress.
    With respect to marlin, the United States has successfully pursued 
increasingly stringent conservation and management measures at ICCAT. 
This has been no mean feat considering that the majority of marlin 
harvested are taken as non-target species in other, more lucrative, 
tuna and swordfish fisheries that are spread among a large number of 
international fleets. The first binding measure ICCAT adopted required 
a 25 percent reduction in marlin landings from 1996 levels by 1999. 
These reductions were to be maintained through 2000. Although not all 
ICCAT members were able to meet the landings reduction targets for 
white marlin, by 1999 overall landings of this species had declined 40 
percent below the 25 percent target reduction level. More recently, 
ICCAT adopted a rebuilding plan for marlins. The first phase of the 
plan requires additional landings reductions. White marlin landings are 
to be reduced 67 percent from the 1999 level, and blue marlin by 50 
percent. It is too soon to tell whether or not these landings 
reductions have been achieved since they only went into effect last 
year. We have, however, received very encouraging information that 
Japan, Brazil, the European Community, and others with significant 
longline fleets have taken steps to implement the required reductions. 
Brazil has even gone so far as to institute a ban on the trade of 
marlins.
    Regarding compliance, the United States has been pursuing state-of-
the-art measures to ensure ICCAT members abide by their commitments. 
Among other things, these compliance rules require that quota 
overharvests are paid back and that quota penalties, including trade 
measures, are assessed for consecutive quota violations in certain 
cases. Further, ICCAT has developed approaches designed to encourage 
non-member cooperation with ICCAT conservation and management measures. 
These measures can and have resulted in the imposition of trade 
measures against both ICCAT member and non-member countries and they, 
together with other innovative approaches taken by ICCAT, have been 
effective in helping to address illegal, unregulated, and unreported 
fishing for Atlantic highly migratory species. The United States fully 
supports the use of multilateral trade measures to further conservation 
goals. Since we are a major importer of certain ICCAT species - in 
particular, swordfish - we are a key player in their implementation.
    Even with the progress ICCAT has made on these and other issues, 
challenges remain. We are currently considering new steps that we can 
take at ICCAT this year to address not only marlin conservation and 
compliance issues but a host of other important matters such as bluefin 
tuna and swordfish management, allocation issues, and fishery 
monitoring issues. In that regard, we welcome the additional attention 
Congress is giving to ICCAT issues as evidenced by Congressional 
Resolution 427. The good intentions and spirit behind the resolution 
are clear and, in that respect, we are supportive of it. We do believe, 
however, that the language is too narrowly focused in some instances, 
particularly given the large number of important issues to be faced at 
ICCAT this year. Operative paragraph 1 is one such example. It would 
also be useful to recognize in the resolution that progress on 
compliance matters, including addressing illegal, unregulated, and 
unreported fishing, has been made and should continue to be a priority. 
We would be glad to work with you and your staff to develop appropriate 
language. With changes along the lines I have described, I believe that 
the resolution would be very useful in helping the United States 
advance its goals for ICCAT.
    Mr. Chairman, this concludes my testimony. Once again, thank you 
for the opportunity to be here today. I look forward to answering any 
questions you or members of the Subcommittee may have.
                                 ______
                                 
    Mr. Gilchrest. Mr. Hayes.

   STATEMENT OF ROBERT HAYES, COUNSEL, COASTAL CONSERVATION 
     ASSOCIATION AND ICCAT RECREATIONAL SECTOR COMMISSIONER

    Mr. Hayes. Thank you. I would like to just submit my 
written testimony for the record and--if I could; and then, 
second, I will just go ahead and summarize it and talk about 
some of the specific issues that I think you have in your 
resolution.
    Mr. Gilchrest. Without objection.
    Mr. Hayes. I am the recreational commissioner, and I was 
just appointed by the President in January, and that process 
alone was frightening enough. But one thought I had while I was 
sitting here is here is a lawyer sitting with two biologists, 
one on either side, and I thought that was fairly frightening.
    Mr. Gilchrest. Is it frightening for the biologist or the 
lawyer?
    Mr. Hayes. Touche.
    The resolution that you have before you, as I read it, 
deals with really three central and critical issues that are 
before ICCAT. One is how they treat white marlin.
    White marlin is obviously important to us. We have just 
dodged a major bullet, in my view, by not listing it under the 
Endangered Species Act, something that I commend the National 
Marine Fisheries Service for; and they did that, I believe, 
because they felt that the international community had begun to 
address the conservation of white marlin through ICCAT, through 
the 67 percent reduction in landings.
    We don't know if that is going to work yet. We don't know 
if that is adequate. We don't know if there is more that needs 
to be done. And, most assuredly, there are things that can be 
done. But, clearly, the 67 percent reduction would appear to be 
adequate for most scientists, as best I understand, to ensure 
that they won't go extinct and that, in fact, they might begin 
some form of rebuilding. So I think we have got a little time 
to work on white marlin.
    The second thing, as I see it, that you have got in your 
resolution is a discussion of the EU eastern bluefin situation; 
and I think Bill's testimony and my testimony and everyone's 
testimonies really describe that situation. The United States 
simply has a different view of what ought to be done to 
maintain eastern bluefin. Our view is based, as I see it, on 
the principles that are in the Magnuson Act, that is, you 
prevent overfishing, and when a stock is overfished, you take 
those measures that are necessary to rebuild it.
    The Europeans don't quite seem to be in that view. In fact, 
they are proposing things like overfishing the eastern bluefin 
stock by 8,000 metric tons over the MSY of 25,000 metric tons. 
So that is pretty significant. That is a 33 percent overage. 
That is a pretty big number.
    We are going to try to make some progress on that issue. I 
know that there has been a 301 petition filed with USTR on this 
issue. As I understand it, there may be a Pelly Act petition 
filed later next week also on this issue. I think it is 
something that we not only need to focus on but which, at least 
in my preliminary discussions with both of my two biologist 
colleagues here and Glenn Delaney, we have focused in on as a 
clear priority. So the inclusion of that in your resolution is 
both appropriate and necessary.
    The third thing that I saw that you basically focused on 
was this whole idea of IUU vessels--illegal, unreported and 
unregulated. Yes, I always throw in unknown because that is the 
truth of it. I think there is a third U that belongs out there, 
which is unknown.
    ``We'' being the international community--know something 
about these vessels. We know some of them came from Japan. We 
know that some of them are included on the list for various 
reasons by other countries, and we are not--you know, they 
might be competitive reasons, as an example. We know that there 
are a number of those vessels that we may think are illegal but 
which the company--countries, excuse me--that they are 
registered in think are legal.
    So there is, you know, this whole concept of how many there 
are, what they are doing; and the impact of those vessels 
isn't, frankly, all that clear. But I did a back-of-an-envelope 
sketch for you in my testimony, and I am going to go through a 
little bit of that just to give you a sense of the size of the 
problem that I think we are facing.
    The problem we are facing is that the Japanese have 
identified at least 400 of these vessels. Now, let's assume, 
just for the purposes of the argument here, that these vessels 
are conducting longline fishing. We're going to compare them to 
the U.S. longline fleet, which is a regulated fleet, which is 
in absolute compliance with international requirements, which 
is looking at by catch responsibilities and doing, both for 
white marlin and blue marlin, a great job of complying with 
U.S. regulations and international regulations.
    The U.S. fleet is about a hundred boats. They fish about 80 
days a year. The IUU fleet is about 400 boats. By my estimate, 
they fish 300 days a year. They are just out there. They go on 
6-month cruises. They transship at sea. They have much larger 
vessels. They deploy larger gear and more hooks.
    So let's just assume the back of the envelope says this 
fleet has potentially 10 times the fishing power of the United 
States fleet--10 times. Now let's assume that I am absolutely 
crazy, that I am off. Let's make me off by 70 percent. They are 
three times the size of the U.S. Fleet.
    There is no regulation from the United States, and there is 
no international regulation that applies to them. They do not 
discard white and blue marlin in a way that the U.S. fleet 
does, which is with some care to ensure that they get released 
if they are alive, they do take some care to ensure that this 
happens.
    I think, you know, years ago there was a thing that people 
got upset about called a crucifier. Some people might remember 
this device. This is an automatic dehooker. It saves a $1 hook. 
The way it works is you bring the line up, and it is like a 
shovel head. What it does is it splits the fish down the 
middle, takes the hook and frees it and then casts the carcass 
over the side. No U.S. fisherman is using one of those. But it 
is pretty efficient, pretty easy to own, and it is pretty 
likely that at least half of this IUU fleet is using that. So 
these fish aren't being released alive. They are being 
butchered and sent over the side.
    Now, it is not difficult to get enraged over this problem, 
and if you sit there and think about the impact of that problem 
on white marlin recovery, it is staggering.
    So where are we today and what do we need to do? The United 
States for 5 years easy has been at ICCAT chasing this IUU 
fleet country by country by country in an attempt to corner it. 
Other international regional regimes are doing very much the 
same kind of thing.
    This year, we are going to discuss at ICCAT amongst the 
major markets exactly the thing that you suggest, Mr. Chairman, 
trade sanctions, a multilateral identification of product that 
is legal in the world markets and, obviously, an international 
identification of product that is illegal in the world market. 
If we can do that, then we can come back to the United States 
and implement measures here in the United States, in Canada, in 
Europe and in Japan which will put these guys out of business, 
which is exactly what we need to do. If we can do that, we will 
do more for conservation, more for the white marlin 
conservation than any measure which ICCAT presently has before 
it; and it would be a significant step forward. I was glad to 
see that you noted it in your resolution, and I commend you on 
doing so.
    Now, there is one last thing I would like to talk about 
which is in my testimony which I would like to raise, and this 
is the issue of science which is--I will defer to Mr. Graves as 
to what kind of science. You have before you in this Congress a 
bill which you are the sponsor of. You are at the moment in a 
negotiation with the Senate on ITQs. Included in your bill, 
however, is a section which deals with science which is 
absolutely necessary to ensure that we can go ahead and bring 
the kind of effort that we need to bring to ICCAT.
    ICCAT moves on science. Internationally, you make progress 
by presenting sound science. What I would ask you to do is to 
split that portion of your bill out as you probably would like 
to split that portion of the ITQ bill of your bill out, couple 
those two things together and take those to the discussion that 
is going on in the Senate.
    I would be fairly convinced that something, it may only be 
a moratorium, but something is clearly going to pass this year 
on fisheries. One of the things that ought to pass is that 
science portion which there is not a single person in this room 
that objects to, and there is not a single person on your 
Committee objects to. I think it would be a sound and good 
effort and something that would move this process forward.
    Thank you, Mr. Chairman.
    Mr. Gilchrest. Thank you very much. An enticing suggestion.
    [The prepared statement of Mr. Hayes follows:]

Statement of Robert G. Hayes, Counsel, Coastal Conservation Association 
               and ICAAT Recreational Sector Commissioner

    Good afternoon, my name is Robert Hayes and I appear before you 
today in my capacity as one of three commissioners to the International 
Convention for the Conservation of Atlantic Tunas (ICCAT). I also note 
that I am the General Council for the Coastal Conservation Association 
and the American Sportfishing Association. The views I am presenting 
are my own, although each of the groups I represent agree with what I 
have to say here today.
    I am not here to extol the virtues of ICCAT. It is a difficult 
place to make progress and it is a process that is often frustrating 
and laborious. I am here to tell you that this is where the 
conservation game gets played for highly migratory species in the 
Atlantic Ocean. ICCAT can be made to work if we continue US 
conservation leadership and we are imaginative, well armed with good 
science and stand by our principles throughout our negotiations. The 
Congress has been helpful in reinforcing the US commitment to sound 
conservation principles and in demonstrating our commitment to our 
foreign counterparts. The resolution, which we will discuss today and 
the actions of the Congress need to send just such a signal again as we 
head for yet another round of contentious international conservation 
negotiations.
    The fisheries that ICCAT manages cover the entire Atlantic Ocean, 
including the Mediterranean Sea, the Gulf of Mexico and the Caribbean 
Sea. The countries that are members of the Commission are mostly 
Atlantic coastal countries except for the distant water fishing 
countries like Japan, Korea and China. There are 32 members of ICCAT 
with the European Union representing 15 individual countries including 
Spain, France and Portugal.
    To date, ICCAT has established conservation restrictions for 
eastern and western bluefin tuna, yellowfin tuna, albacore, big eye 
tuna, blue and white marlin and swordfish. It has considered but has 
yet to adopt binding measures for sharks, turtles and seabirds. To 
enforce these measures, ICCAT has adopted compliance measures for 
member and non-member countries whose vessels operate in contravention 
of the Convention's conservation measures. Almost all of these measures 
have been put in place in the last ten years and they have begun to 
bear fruit.
    The most recent assessment for Atlantic Swordfish demonstrates that 
sound management measures based on universally accepted and peer 
reviewed science can recover stocks of fish. I think it is fair to say 
that the efforts of the Congress, three administrations, the industry, 
the recreational and environmental communities and the legions of 
volunteers and agency staff are beginning to pay off. Having said that, 
there is a mountain of work yet to do.
    ICCAT has just begun to address the concept of bycatch. The impact 
of large commercial harvesting of target species on sharks, billfishes, 
seabirds and turtles is just beginning to come under the purview of 
ICCAT. At the insistence of the United States, marlin were the first 
non-target species in the Atlantic to get protection. As most in this 
room know, billfishes are much valued in the United States as gamefish. 
However, in other parts of the world they are a food source at best and 
a waste of bait at worst. Nevertheless, ICCAT has promulgated a series 
of rules directed at retarding the decline of Atlantic marlin. In 1995, 
they adopted an enhanced data program to establish a baseline for 
future stock assessments. In 1996, ICCAT adopted a voluntary program to 
encourage the release of all live marlin. In 1997, a mandatory 25% 
reduction in landings was adopted followed up three years later by 
adoption of a 50% reduction for blue marlin and a 67% reduction for 
white marlin. These escalating restrictions were in response to a 
concern shared Atlantic-wide that marlin stocks were in significant 
trouble and that effort restrictions were justified.
    These reductions apply to the fleets that are fishing legally in 
the Atlantic. To my knowledge, all of the ICCAT member countries have 
complied with the marlin recommendations. It is too early to assess 
what affect the latest measures will have on arresting the decline and 
furthering the recovery of marlin, but most international scientists 
agree that these measures have produced a significant decline in 
mortality.
    ICCAT is at best an incremental process. One cannot assume that all 
of the ills, as this country sees them, will be solved every year. 
However, as long as our goal is conservation of the resource, the 
prevention of overfishing and the recovery of overfished stocks, we can 
make progress. This year there are two very large problems on which we 
can make progress. The first is bringing a recovery program to eastern 
bluefin tuna; the second is putting measures in place to control 
illegal, unregulated and unreported fishing.
Eastern Bluefin
    Last year, the United States took the extraordinary step of 
objecting to the harvest levels proposed for eastern bluefin tuna. 
<SUP>1</SUP> The action precipitated a series of events which cratered 
last year's meeting and resulted in the first series of votes ever 
taken by ICCAT. Many delegations in the room in Murcia, Spain were 
shocked the United States felt so strongly about a fishery that they 
did not participate in and what, at least to most, was a fishery which 
had little impact on the United States. <SUP>2</SUP>
---------------------------------------------------------------------------
    \1\ ICCAT operates on consensus but has since its inception had a 
very detailed voting process. Prior to last year, the voting process 
had never been used for conservation measures.
    \2\ It is unclear today what the impact of the US action will be on 
the future of ICCAT. Last year's meeting will be adjourned this year at 
the start of the Bilbao meeting after an agreement on how to treat 
eastern bluefin catches for this fishing year. The need for votes in 
the future and how it will change the acceptance of measure by 
individual countries is still in doubt.
---------------------------------------------------------------------------
    Why was the United States so adamant in its opposition to the 
harvest levels agreed upon by the EU and 20 other members of ICCAT?
    The United States has three paramount interests here. The first is 
the impact on the conversation ethic of our own citizens. US 
harvesters, commercial and recreational, are the conservation leaders 
at ICCAT. Year after year, our harvesters tighten their belts, lower 
their expectations and work toward conservation regimes that prevent 
overfishing and rebuild stocks. It is extremely difficult to maintain 
that ethic in the face of foreign vessels fishing well in excess of 
scientifically recommended levels.
    The second reason is biological. Scientists have increasingly found 
evidence that there may not be two stocks of bluefin in the Atlantic. 
At a minimum they are concluding that there is a significant amount of 
intermingling of the east and the west. The level of dependence of one 
on the other will be determined in the future but it is now clear that 
the two stocks mix. What happens in the east does have some impact on 
the western stock.
    Lastly, there is the integrity of ICCAT itself. ICCAT has operated 
as a consensus organization for 30 years. Consensus is important 
because any country disagreeing with a conservation measure can object 
to it after the meeting and the measure will not apply to harvests from 
that country. The use of objections, which are being used more 
frequently, undermines the conservation objectives of ICCAT. In order 
to get consensus and reduce the use of objections, it is necessary for 
the larger fishing nations and the principal seafood markets to show 
conservation leadership. Without that leadership the conservation gains 
of ICCAT will quickly erode to an all nation harvest free-for-all.
    For the last ten years, the United States has endorsed harvest at 
levels supported by sound science. For the last six years, the United 
States has followed the management formula in the Magnuson-Stevens Act, 
namely, preventing overfishing and rebuilding stocks as quickly as 
possible. What the European Union proposed last year was a harvest of 
some 8000 MT above the harvest level recommended by the SCRS of 25,000 
MT. They simply wanted to overharvest for a couple more years so they 
could get a comprehensive allocation scheme put in place. When the 
United States objected, other countries, notably Canada and Korea, 
voiced concerns. Soon enough Korea noted the absence of a quorum 
without which no votes could be taken. Subsequently, ICCAT has taken a 
series of votes by mail. All of them passed except the EU eastern 
bluefin tuna proposal.
    This leaves the issue of eastern bluefin tuna to the beginning of 
this year's meeting. ICCAT will have to decide what to do about this 
year's catch level and then decide on subsequent years. It will have to 
make that decision in a far more heated environment than last year. The 
Recreational Fishing Alliance has filed a 301 petition here in the 
United States asking for trade sanctions for the EU's failure to comply 
with ICCAT measures. <SUP>3</SUP> The petition has the support of a 
number of recreational and commercial groups. There is a rumor that the 
World Wildlife Fund will file a Pelly Act petition making similar 
arguments. In addition, there is the continued Congressional oversight 
of the EU actions. Lastly, the voting coalition that the EU enjoyed in 
Murcia dissolved during the mail votes on the eastern bluefin proposal 
last spring.
---------------------------------------------------------------------------
    \3\ EU countries have failed to comply with the minimum size 
requirement for years. In addition, the EU's reluctance to fish eastern 
bluefin at MSY levels can be argued to be in contravention of the 
treaty's objective.
---------------------------------------------------------------------------
    Last year, the United States position was clear and so far it has 
remained unchanged. The countries in the eastern bluefin fishery need 
to reduce their harvest to a level consistent with the SCRS recommended 
level. This may take a series of years to achieve but the continuation 
of the overharvesting at the present level is unacceptable. We need to 
press forward aggressively on eastern bluefin to ensure that harvest of 
all ICCAT species is consistent with sound internationally accepted 
principles of conservation.
Illegal, Unregulated and Unreported Fishing
    The second problem that needs to be addressed at this year's 
session is the ongoing dilemma of illegal, unregulated and unreported 
(IUU) fishing. The world has been chasing a fleet of pirate vessels 
harvesting on the high sea for the last ten years. These vessels are 
not registered in countries that are part of any regional conservation 
regime and for the most part don't comply with any of the conservation 
recommendations. These vessels are predominately longliners built in 
the 60's and 70's as part of the Japanese longline fleet. Japan, 
wishing to right size its overcapitalized longline fleet, sold these 
vessels in the early 90's and the chase began. These vessels harvest 
tunas and swordfish on the high seas without encumbrances.
    ICCAT estimates that there are some 400 of these vessels. The 
fishing power of this fleet is substantial. As a comparison, the US 
fleet in the Atlantic is about 100 vessels. They average 70 feet in 
length and fish about 80 days a year. The IUU fleet averages 120 feet 
in length and fish in the Atlantic about 200 days a year. The fishing 
power of this fleet is roughly 10 times that of the US fleet 
<SUP>4</SUP>. But that only begins to describe the potential damage. 
The 67% reduction in landings for white marlin does not apply to this 
fleet. The cap on Yellowfin effort does not apply to this fleet. The 
rebuilding plan for swordfish does not apply to this fleet. Nothing 
ICCAT has put in place has been able to be enforced on this fleet. The 
damage they are doing is stunning.
---------------------------------------------------------------------------
    \4\ This is a very conservative estimate. The IUU fleet probably 
fishes 300 days a year in the Atlantic, Pacific and Indian Oceans. Its 
cargo is transshipped at sea to the major seafood markets in the world.
---------------------------------------------------------------------------
    For the past ten years, ICCAT has instituted a series of 
enforcement measures, many of which have been directed at these 
vessels. The committee which reviews the enforcement of these measures 
now takes almost half of the plenary session to complete its work. 
<SUP>5</SUP> These measures have been directed at the countries that 
register the vessels. By the time the enforcement measure goes into 
place the vessels have moved to a new country. ICCAT can not continue 
to approach controlling this fleet by the use of country specific 
measures. It needs to take an approach that puts the IUU fleet out of 
business by controlling access to the market for the fleet's products. 
Just such a measure is being discussed by the EU, Japan, Canada and the 
US.
---------------------------------------------------------------------------
    \5\ Five years ago this committee, known as the Permanent Working 
Group for the Improvement of ICCAT Statistics and Conservation Measures 
or PWG met for less than two hours in a 10 day meeting.
---------------------------------------------------------------------------
    This measure would make harvests of these vessels ineligible for 
entry into the markets of the ICCAT member countries. Ideally it would 
work similar to the present coffee and textile agreements. Vessels 
allowed to harvest in the Atlantic would be registered with the ICCAT 
Secretariat every year before fishing begins. Harvests would be shipped 
with accompanying documentation identifying its origin. In order to 
import swordfish, bigeye, bluefin and yellowfin tuna the import would 
require a certification from the exporting country that the product was 
caught in compliance with ICCAT conservation measures.
    Domestically, it would mean more work for Customs and NMFS but once 
the EU, Japan, US and Canada put market controls in place, the impact 
on the conservation of ICCAT managed stocks will be significant. The 
adoption and implementation of this measure will have more impact on 
the conservation of white marlin than any other single measure ICCAT 
now has under consideration.
Future Needs
    The United States will continue it conservation leadership at ICCAT 
so long as it can provide a scientific justification for the measure it 
supports. Science, more than any other effort, brings results at ICCAT. 
The United States is considering the use of closed areas to reduce 
bycatch and enhance the recovery of stocks. This effort lacks adequate 
data to analyze the specific areas and the consequences of closures. 
Longlining continues to be a preferred method of high seas harvest. 
Many in the United States believe that there are ways to reduce the 
impact of longlining on non-target species by changing fishing methods 
and gear. If the United States intends to go this route, it will need 
some research to support change.
What can Congress do?
    1. LSupport the United States effort to bring the EU into 
compliance for the harvest of eastern bluefin tuna.
    2. LSupport the adoption of market controls to eliminate IUU 
fishing.
    3. LBreak out the highly migratory species research portion of the 
Gilchrist/Saxton bill and add it to the IFQ discussions now being held 
by the House and the Senate. In the alternative, being an initiative to 
fund HMS research.
    This Congress has already been supportive of the efforts to bring 
sound conservation to ICCAT. Passage of the resolution before you and 
continued dialogue with the administration on EU fishing and IUU 
controls can this year take us all one step closer to a better managed 
and healthier resource in the Atlantic.
    Thank you for this opportunity to comment.
                                 ______
                                 
    Mr. Gilchrest. Dr. Graves.

  STATEMENT OF JOHN GRAVES, CHAIRMAN, DEPARTMENT OF FISHERIES 
 SCIENCE, VIRGINIA INSTITUTE OF MARINE SCIENCE, AND CHAIRMAN, 
                    ICCAT ADVISORY COMMITTEE

    Mr. Graves. Thank you, Mr. Chairman. I am pleased to 
testify before this Subcommittee on House Concurrent Resolution 
427.
    I have a keen personal interest in Atlantic highly 
migratory species and for almost two decades I have been 
involved in research and management of these impressive 
animals. For the past 7 years I have served as chairman of the 
US ICCAT Advisory Committee and in October will be my eighth 
consecutive trip to the annual ICCAT meeting as a coordinator 
of the U.S. Delegation. It is in this capacity that I wish to 
address you today.
    Last November, the ICCAT meeting ended in a meltdown. On 
the last day, the United States refused to agree to a binding 
recommendation that would allow gross overfishing of eastern 
atlantic bluefin tuna to continue. Our actions precipitated a 
series of events that resulted in the meeting ending without 
adoption of most management measures and the control of many 
fisheries in limbo. Fortunately, panel reports, and their 
management provisions, were subsequently adopted by mail.
    The U.S. delegation did not take its actions lightly. For 
years, the Commission has been presented with management 
proposals that condone overfishing, often at the 11th hour at 
the meeting. The United States has agreed to such proposals 
simply to preserve consensus and to ensure that some management 
measure remains in effect. But last year there was unanimity 
among the U.S. Delegation that in the case of eastern atlantic 
bluefin tuna no recommendation was better than the 
irresponsible recommendation that had been proposed. It was 
hoped that the breakdown of the ICCAT process would raise 
awareness back in the United States of problems within the 
Commission and spur the administration to promote bilateral 
negotiations with certain recalcitrant parties prior to this 
year's meeting. Such direct interaction, might facilitate the 
adoption of more meaningful management measures by the 
Commission. I am pleased that this Subcommittee has taken note 
that ICCAT is in trouble, as are many of the stocks under its 
management purview.
    I strongly support the spirit and the intent of House 
Resolution 427. For several years, a priority for the U.S. 
ICCAT Advisory Committee has been to obtain multilateral 
authorization for unilateral trade actions promoting compliance 
with Commission conservation recommendations. I recently 
convened four regional meetings of the Advisory Committee along 
our Atlantic coast, and I cannot adequately express the 
indignation and outrage many of the public felt when they found 
out that the United States cannot stop the importation of more 
fish from a nation than that nation's ICCAT quota. Not only 
does this noncompliance erode the resource and slow recovery 
plans, but the extra imported product depresses the domestic 
market for U.S. fishermen who do abide by ICCAT conservation 
measures.
    It was, therefore, very gratifying for all of us on the 
Advisory Committee to see ICCAT adopt a resolution last year 
that directs member and nonmember nations to refrain from 
engaging in the transaction and transshipment of atlantic 
highly migratory species from IUU vessels or vessels fishing 
out of compliance with ICCAT recommendations. It is our hope 
that this resolution will provide one mechanism to promote the 
conservation of ICCAT species and protect the interests of our 
fishermen.
    Atlantic marlin certainly merit high priority at next 
month's ICCAT meeting. I spent most of my summer as a member of 
the white marlin ESA status review team, and I know the plight 
of these populations. However, I feel that making them the 
Commissioners' highest priority could potentially limit our 
effectiveness. There are many critical items on the agenda at 
this year's meeting for ICCAT. During 2002, ICCAT's fishery 
science arm, the Standing Committee on Research and Statistics, 
has conducted an unprecedented number of stock assessments, 
including white marlin, western Atlantic bluefin tuna, eastern 
Atlantic bluefin tuna, North Atlantic swordfish, South Atlantic 
swordfish; and they are currently conducting an assessment of 
Atlantic bigeye tuna. That is a lot of work.
    Based on the outcomes of these assessments, new management 
measures and, in some cases, quota allocations will have to be 
negotiated. As the United States has interest in all of these 
stocks, narrowing our focus or publicizing our priorities could 
be counterproductive.
    I would also like to point out that it is quite unlikely 
the Commission members will be receptive to additional 
management measures for marlins this year. A hard-fought ICCAT 
recommendation requiring release of live white marlin and blue 
marlin from longline and purse seine fisheries went into effect 
in the middle of last year. Until the impact of this management 
measure can be assessed--and that will be several years down 
the road--there will be little resolve within the Commission to 
do more for the marlins. It may be more prudent to request the 
Standing Committee on Research and Statistics to consider other 
means of reducing fishing mortality on the marlins, including 
determining the effects of various time/area closures 
throughout the Atlantic. That way, if the next assessment 
indicates additional management measures are required to 
rebuild the stocks, the Commission will have the information 
necessary to make an immediate decision on the best course of 
action to pursue.
    In closing, it is time for the United States to do all it 
can to ensure that ICCAT properly manages Atlantic highly 
migratory species. Our commercial and recreational fishermen 
have made many sacrifices to rebuild overfished stocks, and it 
is frustrating to see their efforts diminished by 
noncompliance, IUU fishing and the continuing adoption by ICCAT 
of management measures that condone overfishing. The United 
States should not abet such activities by acting as a market 
for nations who do not adhere to the Commission's policies.
    House Resolution 427 conveys that message, and it is a good 
first step. But we must also follow through with high-level, 
bilateral negotiations to reduce ICCAT's current dysfunction 
and to ensure conservation of the resource its member nations 
manage.
    I thank you for your time, and on behalf of the U.S. ICCAT 
Advisory Committee I thank you for your support.
    Mr. Gilchrest. Thank you, Dr. Graves.
    [The prepared statement of Mr. Graves follows:]

Statement of John E. Graves, Chairman, Department of Fisheries Science, 
  Virginia Institute of Marine Science, and Chairman, ICAAT Advisory 
                               Committee

    Mr. Chairman, Honorable Members of Congress, fellow witnesses, 
distinguished guests, ladies and gentlemen:
    I am pleased to testify before the Subcommittee on Fisheries 
Conservation, Wildlife, and Oceans on House Resolution 427. I have a 
keen personal interest in Atlantic highly migratory species, and for 
almost two decades I have been actively involved in research and 
management of these impressive animals. For the past seven years I have 
served as Chairman of the U.S. ICCAT Advisory Committee and this 
October will be my eighth consecutive trip to the annual ICCAT meeting 
as a coordinator of the U.S. delegation. It is in this capacity that I 
wish to address you today.
    Last November the ICCAT meeting ended in a meltdown. On the last 
day, the United States refused to agree to a binding recommendation 
that would allow gross overfishing of bluefin tuna in the eastern 
Atlantic and Mediterranean to continue. Our actions precipitated a 
series of events that resulted in the meeting ending without adoption 
of most management measures, leaving control of many fisheries in 
limbo. Fortunately, panel reports--and their management provisions--
were subsequently adopted by mail. The U.S. delegation did not take its 
actions lightly. For years, the Commission has been presented with 
ICCAT management measures that condone overfishing, often at the 
eleventh hour of the meeting. The United States has agreed to such 
proposals simply to preserve consensus and to ensure that some 
management measure remains in effect. But last year there was unanimity 
among the U.S. delegation that in the case of the eastern Atlantic and 
Mediterranean stock of bluefin tuna, no recommendation was better than 
the irresponsible recommendation that was proposed. It was hoped that 
the breakdown of the ICCAT process would raise awareness back in the 
United States of problems within the Commission, and spur the 
Administration to promote bilateral negotiations with certain 
recalcitrant parties prior to this year's meeting. Such direct 
interactions might facilitate the adoption of more meaningful 
management measures by the Commission. I am pleased that this 
Subcommittee has taken note that ICCAT is in trouble, as are many of 
the stocks under its collective management.
    I strongly support the spirit and intent of House Resolution 427. 
For several years, a priority for the U.S. ICCAT Advisory Committee has 
been to obtain multilateral authorization for unilateral trade actions 
promoting compliance with Commission conservation recommendations. I 
recently convened four regional meetings of the U.S. ICCAT Advisory 
Committee, and I cannot adequately express the indignation and outrage 
many of the public felt when they found out that the United States 
cannot stop the importation of more fish from a nation than its annual 
ICCAT quota. Not only does this non-compliance erode the resource and 
slow recovery plans, but the extra imported product depresses the 
domestic market for U.S. fishermen who do abide by ICCAT conservation 
measures.
    It was therefore very gratifying for all of us on the U.S. ICCAT 
Advisory Committee to see ICCAT adopt a resolution last year that 
directs member and non-member nations to refrain from engaging in the 
transaction and transshipment of Atlantic highly migratory species from 
IUU vessels, or vessels fishing out of compliance with ICCAT 
recommendations. It is our hope that this resolution will provide one 
mechanism to promote the conservation of ICCAT species and protect the 
interests of our fishermen.
    Atlantic marlin certainly merit high priority at next month's ICCAT 
meeting; however, I feel that making them the Commissioners' highest 
priority could potentially limit our effectiveness. There are many 
critical items on the agenda at this year's meeting. During 2002, 
ICCAT's Standing Committee on Research and Statistics has conducted 
stock assessments of white marlin, western Atlantic bluefin tuna, 
eastern Atlantic/Mediterranean bluefin tuna, North Atlantic swordfish, 
South Atlantic swordfish, and they are currently assessing bigeye tuna. 
Based on the outcomes of these assessments, new management measures 
and--in some cases--quota allocations, will have to be negotiated. As 
the United States has interests in all of these stocks, narrowing our 
focus or publicizing our priorities could be counterproductive.
    I would also like to point out that it is quite unlikely the 
Commission members will be receptive to additional management measures 
on white marlin and blue marlin this year. A hard-fought ICCAT 
Recommendation requiring release of live white marlin and blue marlin 
from longline and purse seine fisheries went into effect in the middle 
of 2001. Until the impact of this management measure can be assessed 
(which will be a few years down the road), there will be little resolve 
to do more. It may be more prudent to request the Standing Committee on 
Research and Statistics to consider other means of reducing fishing 
mortality on the marlins, including determining the effects of various 
time/area closures. That way, if the next assessment indicates 
additional management measures are required to rebuild the stocks, the 
Commission will have the information necessary to make an immediate 
decision on the best course of action to pursue.
    In closing, it is time for the United States to do all it can to 
ensure that ICCAT properly manages Atlantic highly migratory species. 
Our commercial and recreational fishermen have made many sacrifices to 
rebuild overfished stocks, and it is frustrating to see their efforts 
diminished by non-compliance, IUU fishing, and the continuing adoption 
by ICCAT of management measures that condone overfishing. The United 
States should not abet such activities by acting as a market for 
nations who do not adhere to the Commission's policies. House 
Resolution 427 conveys that message, and it is a good first step. But 
we must also follow through with high level, bilateral negotiations to 
reduce ICCAT's current dysfunction and to ensure conservation of the 
resources its member nations manage.
    I thank you for your time, and on behalf of the U.S. ICCAT Advisory 
Committee, I thank you for your support.
                                 ______
                                 
    Mr. Gilchrest. Just a quick question that you raised about 
ICCAT not being in the mood to further restrict the catch of 
white marlin. ICCAT has--it is my understanding, based on the 
testimony, accepted a reduction of 67 percent in the management 
plan for white marlin. And if that is the case, if--let's say 
our resolution doesn't change and it still has as its highest 
priority white marlin, how will our resolution, having white 
marlin as a priority, and trade sanctions against those 
countries that are violating it, how likely will ICCAT--not 
that they--I mean, it is our resolution. But how likely will 
ICCAT be positive or negative in its reception to this 
resolution coming so soon before--on the heels of the ICCAT 
meeting?
    Mr. Graves. I don't personally think that it will have a 
great impact on the ICCAT countries. If you look at the 
recommendation, it turns out that our estimates of the 
percentage of white marlin that are alive when longline gear is 
hauled back or the purse seine closed ranged from 44 percent 
alive to 69 percent of them are alive at the time the gear is 
retrieved. So if we are reducing the landings by 67 percent, it 
was hoped that that 67 percent would be those that were alive. 
But there may not even be 67 percent of them that are alive.
    But essentially what they are doing is, by releasing all 
live billfish, is they have gone as far as they can go in terms 
of making a reduction without reducing their effort in terms of 
the hooks they put in the water or where they are setting them. 
So until they can actually see what the benefit of this 
rather--what they perceive as a draconian measure and one for a 
resource that they are not that terribly interested in 
anyway--.
    Mr. Gilchrest. They would look at this resolution as a 
draconian measure.
    Mr. Graves. No, the recommendation that was passed was a 
draconian measure for them.
    Mr. Gilchrest. I see.
    Mr. Graves. So now putting right on the heels of that 
before we see what was done, they would think that this might 
be unnecessary.
    Mr. Gilchrest. Will it help or hinder the U.S. position, 
this resolution in the ICCAT negotiations?
    Mr. Graves. On white marlin?
    Mr. Gilchrest. On white marlin.
    Mr. Graves. I think it would be much better for us to have 
a more general resolution. I think the problems that ICCAT--the 
same problems we are having with white marlin transcend to many 
other species. And I think that--I think that what the United 
States should be--the resolution we want, well, I would like to 
see it as not--is making sure that we don't adopt any 
recommendation that condones overfishing. If we could do that 
and put the squeeze on IUU fishing, we would be doing an awful 
lot for the resources.
    Mr. Gilchrest. Dr. Hogarth, your opinion on whether this 
resolution would hurt or help the U.S. position, let's say, 
from a white marlin perspective or a more general, suppose we 
wrote the resolution where it was much more general so that 
anybody that participated in overfishing faced a potential 
trade sanctions. Would that help or hurt the U.S. position?
    Mr. Hogarth. I think it helps the U.S. position to be 
broader, I think, in this instance. As you go forward, like for 
this year is probably one of the toughest year we have had. We 
have got most species on the table for discussion. I think if 
we go in with just marlin then they will say, well, this is the 
U.S. interest this year, so we don't really have to worry about 
bluefin tuna or swordfish or, you know, compliance measures. So 
I think if it is broader it shows that we are concerned about 
compliance in overfishing, period; and we want conservation 
measures.
    I think what we are going to try to start pushing is time/
area closures for white marlin. We want to talk about putting 
them under the compliance regime. Right now, they are not under 
the same compliance regime as bluefin tuna. So, imposing trade 
sanctions is not possible until we change the compliance regime 
and include them.
    That is the type of thing we want to do this year, continue 
to work on changing the compliance regime, getting them in 
there so we can impose trade sanctions, getting them to look at 
other measures such as time/area closures. So that is what we 
want on white marlin, but we have to deal with eastern bluefin 
tuna, which is a major, major issue for us also, and swordfish. 
So I think it is great to have Congressional support, but we 
would like to see it broader.
    Mr. Gilchrest. So when you say "broader," don't mention a 
particular species? Just--would it be too broad to say 
overfishing on any species?
    Mr. Hogarth. Well, I think when we talk about species under 
the management of ICCAT, we need to make sure that we have 
compliance and conservation measures in place and reduce 
overfishing. And if you want to say, you know, including white 
marlin or especially white marlin, that doesn't bother me.
    Mr. Gilchrest. I see.
    Mr. Hogarth. Yes. But we want to be--we want to make sure 
that we are concerned about the big picture of all the highly 
migratory species that ICCAT manages in the Atlantic.
    Mr. Gilchrest. So just to make sure I understand, in this 
resolution that deals with the recommendation for trade 
sanctions, it would be helpful for the U.S. position--not only 
for the reality of the trade sanctions but it would be helpful 
for the U.S. position in your negotiations with ICCAT to 
mention trade sanctions against those nations that pursue--I 
guess we could either say overfishing of those species under 
ICCAT, including bluefin tuna, white marlin, swordfish.
    Mr. Hogarth. Yeah. That is correct. We have some specific 
wording that we were willing to work with your staff this 
afternoon after this hearing to--because we know you want to 
get this on the floor. And we have some specific wording which 
we think would help this, and it is not very complicated. It is 
just a few words here and there we think would make it, you 
know, much more, more general and help us, for the big picture 
this year.
    Mr. Gilchrest. Mr. Hayes. Any comment on that issue?
    Mr. Hayes. I was just--I know Bill's got some specific 
wording, but so do I, as it turns out. I would make it broad 
enough to say that you would apply trade sanctions to any 
product imported into the United States inconsistent or not in 
compliance with any ICCAT measure. Now, by saying any ICCAT 
measure, then that gives us the ability to go negotiate 
overfishing arrangements like the ones that have been 
suggested, specific 67 percent reductions for white marlin. 
That takes care of everything.
    Mr. Gilchrest. OK.
    Mr. Hayes. Because no one is going to import into the 
United States a white marlin. You can't import a white marlin 
into the United States. So applying a trade sanction, you need 
to apply the trade sanction to yellow fin tuna. So that is why 
I would make it as broad as I could.
    Mr. Gilchrest. My intent here is not to ban the importation 
of white marlin as a trade sanction but to ban everything.
    Mr. Hayes. No, I understand.
    Mr. Gilchrest. I would even go so far as to say we are not 
going to import any of your refrigerators or televisions.
    Mr. Hayes. I think we might have a little WTO problem. But 
I certainly think we can do the more narrow one in that sense, 
and I think that would work.
    Mr. Gilchrest. Yes. Maybe Dr. Hogarth can give me this, I 
am not sure, or certainly each one of you could give an answer 
to this. The percentage of the world's market that the U.S. 
represents for ICCAT-managed species, anybody know that? And do 
we have a big enough market that trade sanctions will scare 
countries away from overharvest quotas?
    Mr. Hayes. Actually, I think I can answer the latter 
question much easier.
    I think the United States is not that significant a market 
for ICCAT species because, by and large, we--except for 
swordfish. But the truth there is that the combination of the 
three markets--or four markets, if you will, if you add 
Canada--the United States, the EU and Japan, and then you apply 
it to ICCAT-caught species, you have a significant, significant 
trade implication there and an enormous amount of market 
control over what gets caught legally or illegally. So I think 
the trick here is to get ICCAT to adopt a provision that all of 
its member countries can put in place.
    Mr. Gilchrest. Of all of the fish that we import into the 
United States, how much of that is nonICCAT-caught? Anybody 
know that?
    Mr. Hayes. You mean, like a yellow fin tuna or something?
    Mr. Gilchrest. Yes. The fish that we import into the United 
States, from other than nonICCAT countries.
    Mr. Hogarth. We can probably get you a good idea. I don't 
know it off the top of my head. I know tuna was extremely 
important to our canneries also and then swordfish import. But 
we can probably get you some estimates, and I will get that for 
you.
    Mr. Gilchrest. All three of you mentioned the illegal 
unregulated fishing fleet that could be as much as 10 times the 
size of the United States, up to 400 vessels; and the already 
existing, I guess, regulations that have been promulgated by 
ICCAT to deal with these unregulated ships. In this round of 
talks with ICCAT, are you optimistic? What is the potential for 
enforcement of these unregulated vessels with some type of 
documented or undocumented regime that can be identified? Who 
is going to be--who is going to enforce that? Can they be 
boarded on the high seas? You know, those kind of things. What 
is the potential for beginning the real process of resolving 
that issue of these unregulated vessels?
    Mr. Hayes. I think the potential is actually reasonably 
good. We had an intersessional meeting in Japan in May or so in 
which--the first 3 days of it--with how do we do something 
about these IUU vessels. And there were two approaches raised 
at that meetings.
    One approach was to do essentially what we have been doing, 
which is not working, which is chasing these vessels from 
country to country to country and then we sanction the country 
and then the next thing you know they would be off to the next 
country. So that clearly wasn't working. And a lot of the 
countries represented there--Japan, the United States, Canada, 
the EU--the principal ones all said, yeah, this isn't working.
    So the question became how do we make one work? And there 
are two approaches which people are discussing at the moment. 
One approach is to literally list the bad guys. If we list the 
bad guys--that is a vote.
    Mr. Gilchrest. Finish.
    Mr. Hayes. OK. If you list the bad guys, that is an 
approach that might be a little bit difficult because we, 
frankly, that unknown--I'm serious about that unknown. We don't 
really know very much about these vessels. So the question for 
us really is a more positive approach, which is to have all of 
the legal vessels that are allowed to legally harvest fish in 
the Atlantic ocean identified and then product from those 
vessels allowed to legally be imported into any of the larger 
markets in the world. That is an approach we are looking at, 
and that is an approach we are going to discuss at this 
meeting.
    Mr. Gilchrest. Are these unregulated vessels--there could 
be 2 to 400 hundred of them. Are there any likely from the 
United States?
    Mr. Hayes. I don't believe so. It depends how you identify 
unregulated.
    Mr. Gilchrest. Are they from Asia, Latin America?
    Mr. Hayes. Actually, we don't--I have not heard of a U.S. 
Pirate vessel out there, even by way of rumor. So maybe there 
is one out there.
    Mr. Gilchrest. So are these European vessels, Asian 
vessels, South American vessels?
    Mr. Hayes. These are mostly owned at the moment by a group 
of Taiwanese companies. Many of those vessels were Japan--Japan 
reduced--this will give you a sense of doing--of what you're 
doing in the United States. Japan reduced its longline fleet by 
selling them. What a surprise. They went fishing for somebody 
else.
    A large number of these vessels--not all of them, but a 
large number of them are as a result of the downsizing of the 
Japanese fleet.
    Mr. Gilchrest. Thank you.
    I will yield to the gentleman from New Jersey, Mr. Saxton.
    Mr. Saxton. Thank you very much, Mr. Chairman; and let me 
first apologize for being late. For the last 3 days, I have 
been hosting a Russian delegation from their parliament, their 
duma, and I just bid them good-bye. So we can get back to fish.
    Mr. Hogarth. I am surprised they didn't bring up fish.
    Mr. Saxton. No, they were dealing with terrorists.
    Let me say that I appreciate that there are a number of 
differing positions and ideas about how to deal with this white 
marlin program. I daresay that most everybody in the room knows 
mine; and I am going to bypass that part of this subject, at 
least for right now, because there has occurred something else 
which I find very exciting.
    I have said, ever since I have been a member of, Mr. 
Chairman, of the Merchant Marine and Fisheries Committee, that 
it is very difficult, if not impossible, to have a meaningful 
international negotiation on fish in a vacuum. Recently, I am 
pleased that there seems to be an American consensus, at least, 
among commercial and recreational fishing communities who have 
cooperated to file a petition with the U.S. Trade 
Representative requesting the President take action against the 
European Union under Section 301 of the Trade Act of 1974 
according--as a contracting nation. I have been aware that the 
U.S. has a history of compliance with ICCAT quotas and 
conservation measures. However, the European Union, 
particularly Spain and Portugal, has a history of serious 
noncompliance with ICCAT, at least maybe I should use the word 
this is alleged.
    But, for example, the EU has consistently allegedly 
exceeded catch limits, quotas and landing limits for eastern 
Atlantic bluefin tuna and ignores rules for protection of 
juvenile swordfish. Now this is particularly important in the 
context of white marlin. Because if they are exceeding quotas 
and limits, it would follow logically that they are fishing 
additional sets and, therefore, are also greatly killing more 
of the species that we are here to talk about today.
    So I would just like to begin perhaps with Mr. Hayes, who I 
know has been--has--is very familiar with this and then ask 
both Dr. Graves and Dr. Hogarth to give us their impressions of 
this subject on how--what we might expect to hear in the 
foreseeable future.
    Mr. Hayes. The 301 itself, I believe the decision process 
on that is right before the ICCAT meeting. The way you do is 
you essentially file a petition and the question is whether the 
U.S. Government is going to accept it. If the U.S. Government 
accepts it, then the U.S. Government then will begin a 
negotiation at different levels than Bill and I with the 
European community; and I can assure you that won't hurt.
    Before that is accepted, in the process of that 
deliberation there are a number of issues that are in that 
petition, particularly the overfishing which Dr. Graves 
referred to earlier and Dr. Hogarth has referred to of eastern 
bluefin tuna, which we intend to have some--we collectively 
intend to have some very serious talks with the Europeans about 
before the ICCAT meeting and then at the ICCAT meeting.
    I think you missed my remarks earlier, but I think the use 
of trade sanctions, particularly if you can get them used 
multilaterally, is the avenue here to get international 
conservation compliance. Boarding boats, all of these other 
things are fun. But getting international conservation 
compliance through market-driven measures is really the answer, 
and the 301 helps bring that community together.
    I understand--I won't speak on behalf of Bill, but I 
understand that the Commerce Department and NMFS in particular 
are going to go out and begin to educate a little bit some the 
people on 301 committee with respect to what the fisheries side 
of this issue is and why it is a commercial issue, which I 
think will be very helpful.
    Mr. Gilchrest. We have to run for a vote. We will be back 
as soon as we can. But I think the other questions that we both 
may have for the panel we can probably pick up a phone and 
resolve those issues. So rather than hold you here, one of the 
questions I will have is, if you have a country that skips 
from--if you have an unregulated fishing vessel that jumps from 
country to country to country, how can we target the sanctions? 
But I have to run for a vote so I don't miss it.
    Dr. Hogarth, Mr. Hayes and Dr. Graves, we appreciate your 
coming the distances you traveled to be here. As we move 
through the process over the next week or so to bring this to 
the floor we would like to stay in touch with you for the 
language that you feel would be appropriate.
    Dr. Hogarth.
    Mr. Hogarth. Just one last thing. We will be having a 
briefing on the Hill before we go to the ICCAT meeting in 
October to discuss the positions we will be taking after we 
have that Advisory Committee.
    Mr. Gilchrest. What are the dates on those, on the ICCAT 
meeting?
    Mr. Hogarth. It starts the 25th of October and goes through 
November the 5th.
    Mr. Gilchrest. Thank you.
    The House will stand in recess.
    [Recess.]RPTS THOMASDCMN MAGMER
    Mr. Gilchrest. The Subcommittee will come back to order, 
and there is a wonderfully pleasant rain continuing outside to 
alleviate the drought.
    Mr. Saxton has asked to have one more question to the first 
panel. Dr. Hogarth has left. If Mr. Hayes and Dr. Graves don't 
mind, we will get one more question from Mr. Saxton before we 
move to the next panel; and I will recognize now Mr. Saxton.
    Mr. Saxton. I guess the first question that I ask, the one 
that I am interested in just pursuing relative to the--on the 
subject of 301, I understand that there were some suggestions 
about broadening it and so on, and I just wanted to hear 
firsthand and make sure that we have a complete record--as 
complete as possible today on this subject.
    So, Mr. Hayes, you were explaining your position when I 
left. I don't know whether you were finished.
    Mr. Hayes. I think I did finish, but I would be happy to 
try it again.
    I was thinking it is tough to pin down the administration 
without the administration sitting up here.
    Mr. Saxton. I agree.
    Mr. Hayes. The use of 301 for conservation regimes I think 
is a little unique, but it is not something that is impossible. 
Because conservation regimes deal with trade, ultimately, we 
always tend to look at them as biological things, as things 
in--overfishing is an example. The truth of it is, they are the 
beginning of a large commercial activity which is involved in 
international trade, and the more we can think of it as trade 
and the more we can bring in people like USTR to help us 
negotiate conservation regimes, the better off we are going to 
be.
    So, at least from my perspective, I welcomed the filing of 
the 301. I think it is a good idea. I think it begins to couple 
together the whole concept of multilateral trade sanctions 
which I think are going to be necessary as we try to enforce 
all of these conservation regimes, not just ICCAT but all the 
rest of them, particularly with IUU vessels. So I think it is a 
good idea.
    Mr. Saxton. Thank you.
    Dr. Graves.
    Mr. Graves. Well, I will have to agree with Mr. Hayes on 
the issue. I think he put it quite eloquently.
    The arena for conservation of these species is ICCAT, and 
ICCAT is broken. So whatever other measures we can use to get 
the attention of the parties at ICCAT we are going to need to 
do.
    So I want to turn up the heat everywhere so that the next 
10 days when I go over to Spain I don't feel like once again I 
have been hitting my head into a brick wall and accomplishing 
nothing. There are parties there that are absolutely 
inflexible.
    We have overfished stocks. We have new countries that want 
to join ICCAT, want to get a share of the pie. They want to see 
that they do have an opportunity, and that means that some 
parties are going to have to give up some historical catches. 
There is going to have to be some negotiating. If certain 
parties aren't flexible, then it doesn't work.
    Last year we were very, very close to getting a measure, a 
sharing arrangement and a total allowable catch for south 
Atlantic swordfish. But the EU was unwilling to give up 1,000 
metric tons to accomplish that, and they were the only party 
there that was unhappy with the plan which--in Japan, they are 
giving up quite a bit to do it. So in the end no measure was 
passed.
    The only thing they could do was ask countries to submit 
what they planned to catch, mindful that the replacement yield 
for the next year would be about 14,500 metric tons. When you 
take in what everybody submitted, it is over 21,000 metric 
tons. So they are seriously overfishing that stock.
    It was this obstinance on the part of certain parties that 
have gummed up the works, and we need to soften them up before 
we get over there. So any measures that we can do here to do 
that--and certainly trade measures are one very effective means 
of doing that--will be helpful.
    Mr. Saxton. Now, with regard to the subject of the 
petition, you actually need to get the Trade Representative to 
accept the petition before you go.
    Mr. Hayes. There is a statutory 45-day time period. As I 
understand it, it has been filed at a time which--I think the 
first day of the opening day of the ICCAT meeting is the day 
upon which USTR needs to render the decision. But, you know, we 
all work with the National Marine Fisheries Service. We know 
that there is no time limit that you can't exceed.
    So, you know, my personal perspective is I would prefer the 
administration deliberate the petition as earnestly and as 
thoroughly as they possibly can, rather than rush to a decision 
to comply with a 45-day time limit that, frankly, doesn't 
really have an impact one way or the other. So I would like 
them to deliberate it, frankly, for as long as it is necessary 
so that they can accept it on its jurisdictional grounds and on 
its injury grounds.
    Mr. Saxton. I have prepared a letter to offer to the 
Chairman and other members of the Committee to send to the 
Trade Representative. Perhaps you and Jennifer should talk 
before I finalize that letter to make sure that--to make sure 
it is right.
    So I guess I have no further questions.
    Oh, one thing. There was some talk, I understand, earlier 
about broadening this to other species? Is that--.
    Mr. Hayes. Actually, the discussion was not particular to 
the 301. I think we were talking about the joint--the 
resolution that you have before us.
    Mr. Saxton. I see.
    Mr. Hayes. What we were saying was it is probably not 
useful to indicate our priorities, white marlin as an example, 
in that resolution. I think it is more important to say, move 
forward on conservation, get some compliance with existing 
efforts. I think that was the nature of the discussion.
    Mr. Saxton. Thank you very much.
    Thank you, Mr. Chairman, for your consideration.
    Mr. Gilchrest. Thank you, Mr. Saxton.
    I have one question left hanging out here. It is not a 
resolution question before us, and it is not a 301 issue before 
us. It is sort of a biological question I guess that maybe Dr. 
Graves can give me some insight into, and that has to do with 
post-release mortality of white marlin. I am just curious, is 
that or is that not in the range of data collection so we know 
approximately what that might be, whether it is commercial or 
recreational? And is that then, if it is possible to have data 
on post-release mortality of white marlin, is that factored 
into any management plan in ICCAT?
    Mr. Graves. I will start with the second part of your 
question first, because it is the easiest one for me to 
describe.
    In the status review team report on white marlin, our 
projections did not include any information, we did not 
consider post-release mortality. So it has not been factored 
in, but, yes, it does occur. Assessing it is expensive. We use 
pop-up satellite tags. These are $3,500 apiece, plus satellite 
time is maybe $400 an animal. We have had support from the 
National Marine Fisheries Service and the private community, 
and we did a pilot study just to see if white marlin could 
carry the tags, which are smaller than blue marlin.
    We have done some work on blue marlin, and blue marlin we 
released nine from the recreational fishery in Bermuda, and we 
know that eight of those survived. We released nine from the 
U.S. longline fishery, and we know for a fact that seven of 
those survived.
    We had one nonreporting tag in the recreational study and 
two in the commercial studies, and those could have been 
mortalities or they could have been a tag failure. We couldn't 
discriminate. But two of the fish we had 30-day tags on in the 
commercial study, and one of those animals went 750 miles 
straight line distance in a 30-day period. The other went 1,500 
miles. So they didn't seem to be too badly damaged by their 
time on the longline.
    So then we have gone and tried it with white marlin because 
they are a much smaller animal. We started off with five 
animals in the Dominican Republic this May. We did the tags for 
5 days, and we heard back that four animals survived, and we 
heard from the fifth one, and the fifth one didn't survive. So 
we did have a post-release mortality.
    We have expanded the study. We are still getting the data 
back now. We have tags out on about another dozen or so 
recreational released white marlin and another six or seven 
from the longline fishery. We have had a few mortalities in 
each study, but at this point, you know, percentages are sort 
of meaningless. We need to boost our numbers significantly.
    But mortality for white marlin, post-release mortality is 
higher than it was for blue marlin. It needs to be factored 
into the next stock assessment, and I am sure it will be.
    Mr. Gilchrest. So is there any reliable data that can 
extrapolate the number of marlin released and that live to the 
number of white marlin that are known to be discards or 
bycatch?
    Mr. Graves. The data are small, So you would be making 
conclusions based on 12 recaptures and say three or four 
mortalities. You would be expanding that. I would be much more 
comfortable if we had 40 animals, because I think with a small 
sample size you can just by chance have extremely biased 
results. So the few data that we have I think are quite 
reliable, but I would be very hesitant to expand them. I 
suppose that is what every scientist would say, but in this 
case it could be quite misleading.
    Mr. Gilchrest. Is there a timeframe when these tags might 
be useful to understand the post-release mortality issue?
    Mr. Graves. We could have a very good handle on this by 
this time next year if we had the funding to do it. But, as I 
said, it is expensive.
    Mr. Gilchrest. In your mind, is that the only way? Based on 
what you have done you are saying that there is not real 
reliable data on post-release mortality of white marlin out 
there right now?
    Mr. Graves. These are the only data.
    Just to give you a perception of how important they are, in 
2000 at the ICCAT meeting there was a lot of resistance from 
some nations to take cuts on white marlin and blue marlin; and 
their rationale was if you use conventional tags, little 
streamer tags that have been put out, less than 2 percent of 
those are returned for marlins. And their inference was that, 
aha, this shows you that there is a very high post-release 
mortality.
    But we--at that time my graduate student Dave Kerstetter 
had just finished collecting some of these data on using pop-up 
satellite tags off of longliner; and we said, wait a minute, 
seven out of nine here survived, eight out of nine we know 
survived from the recreational fishery. They are surviving. And 
at that meeting Japan and a few other countries just said, OK, 
that is--we will buy that. And that took out one of the major 
roadblocks and the fact that Japan needed some help with its 
swordfish quota in the north Atlantic we got the measure 
adopted by ICCAT.
    And that was no mean feat but certainly the data that we 
had they bought. They saw it as the only really reliable data 
on post-release mortality.
    Mr. Gilchrest. What is the biggest problem with the 
depletion of the white marlin stock? Is it bycatch or is it 
countries eating white marlin?
    Mr. Graves. There are very few targeted fisheries for white 
marlin. So it is an incidental catch in a lot of fisheries. Now 
it is mandated ICCAT that all live ones will be released. They 
are allowed to retain those that are dead, and they will be 
used--a lot of times they are used as crew shares on a boat. 
They take them home to their families or whatever. There is a 
market for white marlin, but it is not that valuable that it is 
worth shipping it sometimes.
    Mr. Gilchrest. Is the major reason for the depletion of the 
white marlin stock the unregulated vessels, the--.
    Mr. Graves. No. The depletion is the fact that white marlin 
interact with fishing gears of all types and in that 
interaction some of them die. Even though they are not 
targeted, they are taken.
    Mr. Gilchrest. So what does that include besides 
longlining, purse seines?
    Mr. Graves. Longline, purse seine. Everything that goes out 
there that catches a white marlin, whether directed or not, has 
some level of fishing mortality on the stock.
    Mr. Gilchrest. I see.
    OK, Jim, any other questions?
    All right. Mr. Hayes, Dr. Graves, we will probably have 
some follow-up questions. Thank you very much.
    The next panel is Mr. Jim Motsko, President White Marlin 
Open; Ms. Gail Johnson, Shore Captain of the F/V Seneca, 
commercial longline vessel--I like to give my Maine accent to 
Ms. Johnson, see if it is a good one. My daughter is going to 
Bar Harbor now, and she really likes it. It is not too far. 
That is in case I retire in Maine--Mr. Rick Weber, marina owner 
and manager, South Jersey Marina and Yacht Sales; Mr. Dewey 
Hemilright, Captain of Tar Baby, commercial longline vessel; 
and Mr. Russell Dunn, Assistant Director, Ocean Wildlife 
Campaign, the Audubon Society.
    Thank you very much for your patience and apologize in 
advance for the potential vote that may interrupt our hearing. 
But thank you for your patience.
    Mr. Gilchrest. Mr. Jim Motsko from Ocean City, Maryland. He 
runs a successful white marlin tournament out of Ocean City on 
an annual basis, and he is here to testify, and we look forward 
to your testimony.

     STATEMENTS OF JIM MOTSKO, PRESIDENT, WHITE MARLIN OPEN

    Mr. Motsko. Thank you, Mr. Chairman, Mr. Saxton.
    My name is James Motsko; and I am here from Ocean City, 
Maryland, the white marlin capital of the world. I am the 
founder and the President of the White Marlin Open, which is 
the world's largest billfish tournament. I am here today to 
testify about the importance of conserving the populations of 
Atlantic billfish, including white marlin. It is clear that the 
population of billfish has been declining for quite some time, 
and I feel it is extremely important that our government take 
all necessary steps in order to prevent billfish from becoming 
endangered.
    There are several reasons I am concerned about the billfish 
populations. First and foremost, I am a concerned recreational 
angler. I have been fishing off the coast of Ocean City, 
Maryland, since 1966. In the late 1960's there were record 
numbers of billfish, primarily white marlin, caught off of 
Ocean City by a relatively few number of boats. When the 
longline industry began, in this case primarily Japanese 
longlining, the number of white marlin caught began to steadily 
decline and has continued to do so.
    Because of this decline, I helped to fight for the Magnuson 
Fisheries Conservation and Management Act, which established an 
exclusive economic zone for the United States. Essentially, it 
became illegal for any foreign vessel to fish within 200 miles 
of the United States. While this was a very important piece of 
legislation, it did not do enough to preserve the population of 
billfish.
    Secondly, I am a concerned businessman. The White Marlin 
Open generates in excess of $20 million in revenue in a 1-week 
period every year. There are many different entities that 
benefit from this revenue, including the Town of Ocean City and 
the surrounding areas, the State of Maryland and even the 
Federal Government by the way of income taxes.
    The White Marlin Open, currently in its 29th year, draws 
contestants from the East Coast, as well as Texas, California, 
Louisiana, Hawaii, Bermuda and even Australia, with the 
majority of the contestants coming from the Mid Atlantic 
States. This past summer's event drew a record 400 boats and 
over 2,400 anglers, captains and mates. Over 20,000 spectators 
visited Harbor Island Marina, the home of the White Marlin 
Open, during the 1-week event to view a variety of fish being 
weighed in.
    The basic entry fee for the White Marlin Open is $800 per 
boat, with crews having the option of entering different added 
entry levels that range from anywhere from $100 up to $10,000. 
The total prize money awarded during this past summer's event 
was over $2.1 million. The contestants of the White Marlin Open 
consistently released over 98 percent of all white marlin 
caught. This is truly the highest and best use of this precious 
resource.
    Longlining, which is a nonselective type of fishing, 
threatens not only the prosperity and the existence of the 
White Marlin Open and other billfish tournaments but the entire 
recreational fishing industry along the East Coast of the U.S. 
This includes boat and fishing tackle manufacturers, retailers, 
fuel distributors, charter boat operators, marinas, hotels, 
restaurants, and the list goes on. Needless to say, the effects 
of decreasing numbers of billfish caused by longlining could be 
devastating to the coastal economy.
    As you know, there was a petition filed with the National 
Marine Fisheries Service to list the white marlin as an 
endangered species. National Marine Fisheries Service estimates 
that the white marlin stocks are at 15 percent of their maximum 
sustainable yield and are officially designated as overfished. 
Clearly, additional conservation measures for white marlin are 
necessary, but a listing under the ESA is totally unwarranted, 
considering recreational fisherman are releasing 98 percent of 
all billfish caught and there is also a ban on possession of 
white marlin aboard U.S. commercial vessels. Such a listing 
could have led to a prohibition on all fishing for white marlin 
and would have been an absolute disaster for Ocean City, the 
White Marlin Open and thousands of other sport fisherman.
    The white marlin is now a candidate for the ESA and will be 
reevaluated within the next 5 years. According to the National 
Marine Fisheries Service, the U.S. fishery accounts for 
approximately 5 percent of the total mortality of white marlin, 
which is caught mostly as bycatch by international longline 
fisheries. The evidence is clear that the decimation of white 
marlin and other pelagic fisheries is due largely to the EU 
failing to comply with their obligations under ICCAT. The EU 
has consistently failed to implement binding conservation 
measures for marlin, and they have consistently exceeded their 
ICCAT quotas.
    For these reasons, I strongly support the resolution in 
question today. I feel that it is of utmost importance that our 
government take all necessary steps to preserve the population 
of billfish, including imposing trade sanctions on noncompliant 
countries. While ICCAT took very appropriate steps in 
instituting quotas for billfish catches, the quotas do nothing 
to preserve billfish if they are not enforced. I feel the most 
effective way of enforcing quotas in noncompliant countries is 
to hit them where it hurts, which is financially. It is time we 
hold the members of ICCAT up to their end of the bargain and 
force them to follow the rules they agreed to.
    I fully support the petition filed by the Recreational 
Fishing Alliance under Section 301 of the Trade Act of 1974 as 
a tool to bring the EU into compliance into ICCAT. The 
acceptance of this petition by USTR will give the U.S. 
delegation tremendous leverage to negotiate conservation 
measures at the ICCAT meeting in Spain this coming October and 
could be a major breakthrough in the conservation of our highly 
migratory species.
    I appreciate your time and hope that you consider the 
importance of the proposed resolution. Thank you.
    Mr. Gilchrest. Thank you, Mr. Motsko.
    [The prepared statement of Mr. Motsko follows:]

        Statement of James Motsko, President, White Marlin Open

    My name is James Motsko and I am from Ocean City, Maryland, the 
``White Marlin Capitol of the World.'' I am the founder and president 
of the White Marlin Open, the world's largest billfish tournament. I am 
here today to testify about the importance of conserving the 
populations of Atlantic Billfish, including white marlin. It is clear 
that the population of billfish has been declining for quite some time, 
and I feel that it is extremely important that the government take all 
necessary steps in order to prevent billfish from becoming endangered.
    There are several reasons I am concerned about the billfish 
populations. First, and foremost, I am a concerned recreational 
fisherman. I have been fishing off the coast of Ocean City since 1966. 
In the late 1960's, there were a record number of billfish, primarily 
white marlin, caught off of Ocean City by a relatively few number of 
boats. When the longline industry began, in this case primarily 
Japanese longlining, the number of white marlin caught began to 
steadily decline and has continued to do so. Because of this decline, I 
helped to fight for the Magnuson Fisheries Conservation and Management 
Act, which established an exclusive economic zone for the United 
States. Essentially, it became illegal for any foreign vessel to fish 
within 200 miles of the United States. While this was a very important 
piece of legislation, it did not do enough to preserve the population 
of billfish.
    Secondly, I am a concerned businessman. The White Marlin Open 
generates in excess of $20 million in revenue in a one-week period 
every year. There are many different entities that benefit from this 
revenue, including the Town of Ocean City and surrounding areas, the 
State of Maryland, and the Federal Government. The White Marlin Open, 
currently in its 29th year, draws contestants from along the East 
Coast, as well as Texas, California, Louisiana, Hawaii, Bermuda, and 
Australia, with the majority of contestants coming from the Mid 
Atlantic states. This past summer's event drew a record 400 boats and 
over 2,400 anglers, captains, and mates. Over 20,000 spectators visited 
Harbor Island Marina, the home of the White Marlin Open, during the 
one-week event to view a variety of fish being weighed in. The basic 
entry fee for the White Marlin Open in $800 per boat, with crews having 
the option of entering different added entry levels that range from 
$100 up to a total of $10,000. The total prize money awarded during 
last summer's event was over $2,100,000. The contestants of the White 
Marlin Open consistently release over 98% of all white marlin caught. 
This is truly ``the highest and best use'' of this precious resource.
    Longlining, a nonselective type of fishing, threatens not only the 
prosperity and existence of the White Marlin Open and other billfish 
tournaments, but the entire recreational fishing industry along the 
east coast. This includes boat and fishing tackle manufactures, 
retailers, fuel distributors, charter boat operators, marinas, hotels, 
restaurants, and others. Needless to say, the effects of decreasing 
numbers of billfish caused by longlining could be devastating to the 
coastal economy.
    As you know, there was a petition filed with the NMFS to list the 
white marlin as an endangered species. NMFS estimates that the white 
marlin stocks are at 15% of Maximum Sustainable Yield and are 
officially designated as overfished. Clearly, additional conservation 
measures for white marlin are necessary, but a listing under the ESA is 
totally unwarranted considering recreational fisherman are releasing 
98% of all billfish caught and there is a ban on possession of white 
marlin aboard U.S. commercial vessels. Such a listing could have led to 
a prohibition on all fishing for white marlin and would have been an 
absolute disaster for Ocean City, the White Marlin Open, and thousands 
of sport fisherman.
    The white marlin is now a candidate for the ESA and will be 
reevaluated within the next five years. According to the NMFS, the U.S. 
fishery accounts for approximately 5% of the total mortality of white 
marlin, which is caught mostly as bycatch in international longline 
fisheries. The evidence is clear that the decimation of white marlin 
and other pelagic fisheries is due largely to the EU failing to comply 
with their obligations under ICCAT. The EU has consistently failed to 
implement binding conservation measures for marlin and they have 
consistently exceeded their ICCAT quotas.
    For these reasons, I strongly support the resolution in question 
today. I feel that it is of utmost importance that the government takes 
all necessary steps to preserve the population of billfish, including 
imposing trade sanctions on non-compliant countries. While ICCAT took 
very appropriate steps in instituting quotas for billfish catches, the 
quotas do nothing to preserve billfish if they are not enforced. I feel 
the most effective way of enforcing quotas in non-compliant countries 
is to ``hit them where it hurts,'' which is financially. It is time we 
hold the members of ICCAT up to their end of the bargain and force them 
to follow the rules they agreed to. I fully support the petition filed 
by the Recreational Fishing Alliance under Section 301 of the Trade Act 
of 1974 as a tool to bring the EU into compliance with ICCAT. The 
acceptance of this petition by USTR will give the U.S. delegation 
tremendous leverage to negotiate conservation measures at the ICCAT 
meeting in Spain this November, and could be a major breakthrough in 
the conservation of our highly migratory species.
    I appreciate your time and hope that you consider the importance of 
the proposed resolution.
                                 ______
                                 
    Mr. Gilchrest. Ms. Johnson.

  STATEMENT OF GAIL JOHNSON, SHORE CAPTAIN OF THE F/V SENECA, 
                   COMMERCIAL LONGLINE VESSEL

    Ms. Johnson. First of all, on behalf of Blue Water 
Fisherman's Association, congratulations to U.S. pelagic 
fishermen for their major contributions toward rebuilding on a 
fast track the swordfish stock. ICCAT estimated last year that 
the stocks had recovered to almost 96 percent of their ideal 
size and are currently being fished at three-quarters of the 
ideal rate.
    The other thing is, where is Glen? He has the longest track 
record of any of the current commissioners; and last year, with 
the consent of the U.S. Longliners over there, he was able to 
use some of our quota to actually make the marlin 
recommendations happen. Excuse me, I don't think it was last 
year. I am very sorry that you don't have his opinion here 
today.
    So, anyway, my name is Gail Johnson. I am shore captain of 
the fishing vessel Seneca. My husband and I own it together 
through our corporation. Thank you very much for inviting me to 
speak today.
    When I read the resolution I couldn't figure out exactly 
why we need it. Because the process now includes domestic, 
international scientists all getting together, the public, a 
committee that is knowledgeable about all aspects of these 
fisheries, the ICCAT Advisory Committee. The laws that we use 
in this committee include all the tools you mentioned for 
encouraging ICCAT to comply, their nations to comply. What is 
not addressed, however, is the problem of having to use last 
year's data to identify a noncompliant entity.
    Available ICCAT data are usually 2 years old. Perhaps a 
provisional identification of a noncomplying entity could be 
actionable on the basis of older data with a follow-up. I am 
not good at figuring these things out, but that is a thought 
that came to me.
    I have to tell you, some commercial highly migratory 
species fishermen feel a bit--kind of insulted. It took a close 
call with an ESA listing for white marlin before Congress 
seemed to notice international noncompliance. Where were you in 
1998 during the Give Swordfish a Break campaign when the 
extraordinary amounts of swordfish, much of it illegal, 
noncompliant, were flooding the U.S. market? Our fishermen 
barely made it financially to the next year, and we continue to 
bear the burden of noncompliant imports which lower our prices.
    Marlin have been a high priority for the United States 
since about the early 1990's.
    Do you have to go?
    Mr. Gilchrest. You can finish.
    Ms. Johnson. However, they are not a food fish for the 
U.S., whereas bluefin, yellowfin, bigeye, swordfish, they are 
extremely important food fish and money species. To put marlin 
as the highest priority for consecutive years could give the 
perception that the U.S. isn't serious about what really counts 
to the other countries or to their commercial fishermen which 
have a higher standing in those countries than we do. Few 
nations have had or have do have such a large and passionate 
recreational HMS fishery as we do, and it is taking a lot of 
time to explain the importance of marlin to our economy and 
actually to the U.S. psyche.
    Now that you have recognized illegal, unreported and 
unregulated--it is easier to say IUU--fishing, eliminating it 
and encouraging compliance should be the highest ICCAT priority 
for the United States because that will help all the species, 
not just white marlin, not just marlins. Without compliance 
from all the HMS fishing entities, ICCAT can't be effective. 
And rebuilding plans, targets, minimum sizes, they mean nothing 
but problems for U.S. fishermen if foreign noncompliance makes 
it effectively moot.
    The resolution I read refers to, quote, threatening the 
continued viability of U.S. commercial and recreational 
fisheries, end quote. I don't understand this. Other than to 
keep searching for better gear or cease fishing, the longline 
fleet can't do anything more than release 100 percent of the 
marlin, which we have been doing for over a decade. Why should 
other nations noncompliance for marlin threaten U.S. commercial 
fishermen? Our productive fishing grounds are severely reduced. 
Our fleet is drastically reduced. More closures as proposed may 
push our diminished fleet into areas of actually increased 
marlin interactions. The plan seems to be to eliminate this 
U.S. fishery.
    We have to remember ICCAT is, first and foremost, a 
commercially oriented organization and continuing in this 
direction with marlin as the narrow focus will be 
counterproductive to the U.S. effectiveness.
    And I am concerned about saving face at ICCAT. For years, 
the U.S. has touted our ability to get good data on landings of 
our commercial fisheries. However, the data on U.S. 
recreational HMS efforts are scant, and the mortality is even 
worse. We insist on good data from all nations, but we don't 
have it ourselves.
    The ESA petition notes up to a 32 percent mortality rate 
for recreationally caught and released white marlin. A table 
with this information is attached to Mr. Hemilright's written 
testimony. While H.Con.Res. 427 may be a useful exercise to 
express your seriousness about marlin, it is much too narrow a 
focus and I am afraid won't really serve us well at ICCAT.
    Thank you.
    Mr. Gilchrest. Thank you very much, Ms. Johnson.
    [The prepared statement of Ms. Johnson follows:]

  Statement of Gail L. Johnson, Shore Captain, F/V Seneca, Harpswell, 
                                 Maine

    I am Gail Johnson from Harpswell, Maine, one of those towns in 
Maine where you can't get there from here, first you must go to 
Brunswick, unless you have a boat. From the age of 10 I fished as 
sternman with my father lobstering, worked at a roadside seafood stand, 
lobstered with my husband, Charlie Johnson, until children came along 
and then ran the business of buying lobsters, wholesaling them, 
procuring bait, and all the things that business entails.
    Over the years our fishing focus changed from lobstering and 
Charlie was attacked by Blue Water Fever and would not be limited to 
the coastal bays. I was elected as the first woman on the Maine 
Fishermen's Cooperative Association's Board of Directors, was one of 
several women who founded the Maine Fishermen's Wives Association, and 
am a founder and officer of Blue Water Fishermen's Association. I am 
currently a member of the Associated Fisheries of Maine and their 
representative to the Maine Fishermen's Forum Board of Directors, where 
I serve as its Vice-President. From 1985 to 1991 I served as a member 
of the New England Fishery Management Council and convinced them to 
send a council representative to the ICCAT plenary meetings. At that 
time, some HMS were managed by the New England, Mid-Atlantic, South 
Atlantic, Gulf of Mexico, and Caribbean councils. I am gratified that I 
was able to convince enough people that these stocks' problems had to 
have an international solution, that the US could not do it alone. I am 
a member of the ICCAT Advisory Committee and have attended several 
ICCAT plenary sessions.
    My years of experience with the fisheries, making business and 
friendly contacts in such various places as Nova Scotia, Newfoundland, 
Peru and Brazil, have given me a basic idea of how the HMS fisheries 
work in those places and enable me to speak with some authority. I have 
dealt with various levels of domestic and foreign governments on 
fishery issues.
    Currently Charlie and I are co-owners of the 78 ft. Fishing Vessel 
Seneca, a pelagic longliner. He takes care of the boat and fishing and 
I take care of everything else. Between 1974 and now, Charlie's fished 
from 55N all the way to 25S, or the latitudes from off Labrador down to 
about Rio de Janeiro, Brazil. He's fished the Grand Banks since 1976. 
At present, the only way we may fish the international waters off the 
Grand Banks of Newfoundland is under government contract, the value of 
which could be as much as $132,000.00 depending on the number of sets 
made, the unit of payment.
    Congratulations to those who have made the ICCAT process work for 
swordfish! There are the fishermen who sacrificed more in quota, 
fishing areas, and juvenile swordfish restrictions than other countries 
and also more than necessary. Especially, there are the ICCAT 
commissioners to thank for their hard work and downright dedication to 
the US fisheries. Of the three current commissioners, Glenn Delaney has 
the longest track record. Glenn laid the groundwork for marlin 
conservation and with the consent of the commercial fishermen, did the 
trading necessary for marlin conservation. I am stunned the man most 
responsible for international marlin measures is not here and surprised 
and disappointed that you didn't ask his opinion about this resolution. 
Glenn was probably the largest part of the arduous process of gaining 
conservation for swordfish conservation that appears to have worked, 
given the high estimates of the stock at this year's assessment.
    Although I'm gratified that Congress has noticed the highly 
migratory species at last, I'm dismayed that it took a near miss of an 
ESA listing for white marlins as endangered or threatened. Where were 
you in 1998 when the longline fleet nearly went under from the 
reductions in prices from the extraordinary amount of swordfish 
imports? Ironically, that was the year of Give Swordfish A Break. More 
ironic is that probably most of the imports were from nations who were 
over-quota or not ICCAT members at all. As your resolution notes, we 
could be called culpable of ``diminishing the effectiveness of an ICCAT 
conservation recommendation'' for allowing fish in that were from 
noncompliant nations.
    The resolution's narrow focus on marlins (they are mentioned eight 
times in the document, other species only twice) and the recommendation 
that white marlin be the US' ``highest priority'' is insulting to HMS 
commercial fishermen and could be counter-productive at ICCAT for these 
reasons.
    Most countries are focused on the ``money fish,'' the tunas and 
swordfish. They don't have the numbers (or the passion) of US HMS 
recreational fishermen. For a decade, the US has tried to educate ICCAT 
members about the need for marlin conservation and what it means to the 
US. We are making progress, as seen by the accepted measures for 
Atlantic marlin. It's too soon to note any trends, as the reports to 
ICCAT are usually two years old. The data on marlin are sparse, making 
assessment results speculative, or as scientists say, ``uncertain.'' 
Even the U.S. has no idea of marlin mortality from recreational catch 
and release. Longline fishermen have observers as a basis for mortality 
estimates. Recreational fishermen have no such independent observations 
of their fishing or subsequent mortality. There are studies underway 
now that may provide some answers, but if we use the ESA listing 
petition, which could be the ``best scientific information available,'' 
it says that the estimated white marlin mortality is up to 32% of those 
caught and released! With the estimates of numbers of marlin fishermen 
and the numbers of hooks they ``set,'' the mortality rate from catch 
and release is likely significantly higher than from the much-reduced 
longline fleet. Please refer to the table in Mr. Hemilright's testimony 
that contains information referenced in the White Marlin ESA Petition 
for Listing.
    The resolution's preface notes that noncompliance is ``threatening 
the continued viability of United States recreational and commercial 
fisheries.'' US longliners already release 100% of the marlins caught 
and many are very much alive. Rationally, how could others' 
noncompliance threaten U.S. longliners?
    However, we have lost nearly 70% of our productive fishing grounds 
during some times of the year to closed areas. Some of those closed 
areas actually have the potential to increase longline-marlin 
interactions. Our numbers of vessels are reduced by 70%. We are 
continually upgrading gear for best target species results. Perhaps the 
threat is that some will call for ``just a few'' more closed areas to 
protect marlin from longline hooks and that will just eliminate us 
completely. Now that recreational HMS fishermen are threatened, the 
Congress acts.
    What we do need is a change in the Atlantic Tunas Convention Act 
that relieves the problem of using last year's data to identify 
noncompliant entities. As I mentioned, the data are two years old and 
we need the previous year before we can prove noncompliance. With 
measures as sensitive as trade, we must have more timely and accurate 
data. Perhaps provisional identification could work with 2-year-old 
data and be followed up in subsequent years, taking action in the 
second year of noncompliance.
    If you're really serious and can convince countries that marlin is 
worth the money and trouble, we could try to implement a statistical 
document such as the one that seems to be working for bluefin tuna. The 
swordfish statistical document isn't yet operational but we hope it 
will encourage compliance by denying markets to noncompliant product.
    This resolution may be useful to show our citizens that Congress 
cares about Atlantic white marlin, but I doubt that the ICCAT members 
will attach much importance to it; and, sad to say, it feels very much 
like a slap in the face to HMS commercial fishermen.
    Thank you for this opportunity.
                                 ______
                                 
    Mr. Gilchrest. We do have a vote on. I apologize. So we 
will recess and be back as soon as we can.
    But I do want to assure you, Ms. Johnson, that we have to 
plan to reduce the U.S. fishery. That is an issue that I just 
want to make sure you know, that our deliberations here with 
ICCAT are to ensure the further abundance of nature's bounty in 
the ocean so that both the commercial and recreation fishing 
industries cannot only survive but thrive.
    Ms. Johnson. I hope.
    Mr. Gilchrest. We will be back in about 15 minutes. Thank 
you.
    [Recess.]
    Mr. Gilchrest. The hearing will come back to order.
    Once again, thank you for your patience. I think we may be 
OK this time.
    Mr. Gilchrest. Mr. Weber, you are on, sir.

STATEMENT OF RICK WEBER, MARINA OWNER AND MANAGER, SOUTH JERSEY 
                      MARINA & YACHT SALES

    Mr. Weber. Good afternoon, Mr. Chairman and Mr. Saxton.
    My name is Rick Weber. I am before you today as a 
conservationist and businessman and offshore angler. My 
comments on H.Con.Res. 427 itself are relatively brief, and you 
have an esteemed panel. I would like to take a moment to fully 
introduce myself in hopes that you can better understand its 
impacts on me and members of your constituencies that I likely 
represent.
    I have been involved in fish and fishing for as long as I 
can remember. My dad was a charter boat captain, and I remember 
going down to the docks to see what he had caught.
    Once, he brought me a video or a movie at the time that he 
had taken on a fishing trip while offshore. They had gone on 
someone else's boat. They didn't catch much on the trip, but it 
really didn't matter. The trip alone seemed like an adventure 
to a young boy, a long trip to remote waters where few people 
ever went.
    They hoped to find a lot of fish, but no one really knew 
for sure. The anglers had waited all day by the rods. The mate 
kept the cockpit ready, while the captain scanned the ocean. As 
a young boy, I was awestruck by the tale.
    That spirit of adventure is alive today in the heart of 
every marlin fisherman. We are the ultimate optimists. How else 
can you explain getting up before dawn to run for hours, to 
troll through the day, and run those same hours back home, all 
in the hopes of encountering a fish that, for the most part, we 
have neither intent nor desire of landing?
    As stocks have declined, as we all know they have, the 
marlin fisherman have adapted. We are traveling further. We 
fish keener. And, ultimately, we have scaled down our 
expectations. Time was when a three or four fish day was 
ordinary. Now it has become noteworthy. We are still hoping to 
catch fish on every trip, but that optimism has a limit.
    Each fisherman will decide for themselves how great the 
likelihood need be of catching a marlin to make the time and 
expense involved worthwhile. Some have already decided to get 
out of the sport. For certain, there are others right around 
the corner. We would ask that you use what powers you have to 
help save our sport.
    To me, though, it is about more than saving a sport. You 
see that charter boat captain father of mine bought the very 
marina where he kept his boat, and we have as a family--that 
is, mother, father, sister, grandfather, both aunts, both 
uncles and most of my cousins--spent over two decades building 
a business centered around one niche market, the East Coast 
marlin fisherman. We have sold them boats, homes, tackle and 
outfitting. We have stored, serviced, financed and even insured 
their boats. We host them for parties, tournaments and 
rendezvous.
    Again, I will let others give you the industry values. I 
need you to understand the mindset of the consumer. When these 
people decide to jump into the marlin fishing scene, they do it 
with both feet. They buy things, they hire people, they 
contract services, they contribute to the industry and the 
national economy as a whole. For the most part, they have 
continued to do it despite the decline in the populations. But 
make no mistake, each one that leaves takes thousands if not 
millions of current and future dollars with them.
    My family's livelihood, along with thousands of other 
people's and their families', are inextricably tied to the 
health of the white and blue marlin stocks. Think for a moment 
the number of people behind every offshore trip--boat builders, 
sellers and outfitters, marine operators, their dock 
attendants, bait and tackle suppliers, mates and captains. And 
the fuel behind this economic engine? The optimism that today 
will be a great day of fishing. We would ask that you use what 
powers have you to help save our industry.
    Anyone who has spent any time at all around these great 
animals can hardly help but become a conservationist. Following 
in the footsteps of that same charter boat captain, who spent 
many years as a director of the Billfish Foundation and was 
instrumental in the founding the RFA, I am currently a director 
of the National Coalition for Marine Conservation and last year 
accepted a nomination to the Billfish Advisory Panel to NMFS. 
We get involved with these groups and enter the national 
discussion and debate because we refuse to believe that the 
fate of the marlin is cast in stone.
    We are intent on saving our sport and our industry, not 
just for ourselves but our children and our children's children 
and perhaps yours, too, that they, too, might know the 
excitement of an outrigger signal or the frustration of a 
mistimed backlash or the simple sheer joy of setting off early 
one morning on an adventure, full of optimism of what the day 
might bring. For these next generations, we would ask that you 
use what power you have to save our marlin.
    That brings us to today's topic, H.Con.Res. 427. Let me 
start by thanking you for this resolution. Billfish 
conservation in general is a slow-moving cause, where progress 
is measured in inches rather than yards. The fact that you and 
your staffers are willing to spend time and energy on this 
resolution is reenergizing. We are happy to have your 
attention.
    Would I change H.Con.Res. 427? I suppose that we all have 
our own biased agendas and there are things I might like to 
take further. But I am told politics is the art of compromise, 
and I certainly don't see anything here that would cause me to 
oppose the resolution. Frankly, I am supportive of any 
initiative that might help the long-term health of my sport and 
my industry and promote the conservation of marlin. This 
resolution if acted upon would certainly be helpful. So, yes, I 
support and encourage you to support H.Con.Res. 427 as written.
    Am I hopeful for H.Con.Res. 427? That, friends, lies with 
you. This is not a topic that you will be able to address with 
a few choice words and hope it will resolve itself from there. 
I can tell you it will not. It will take some resolve from this 
body to move this agenda forward.
    The international nature of the resolution is sure to help 
it pass. One thing that the environmental, commercial and 
recreational sectors all agree on is that, by almost any test, 
U.S. fisheries are cleaner, more selective, and more closely 
monitored than any other in the world. The oceans would be a 
better place if more nations would follow our examples. Does 
that mean, though, that we should park our domestic agendas or 
stop striving for cleaner fisheries? To the contrary, once we 
have people following our lead it is more important than ever 
that we keep raising the bar, that we keep pointing the way to 
sustainable fisheries.
    In the past year, you have considered many things that 
would be beneficial to the Nation's billfish. You have looked 
at Mr. Saxton's rolling closures, Mr. Hunter's total closures, 
Mr. Farr's ideas on ecosystem management and Chairman 
Gilchrest's bycatch reduction ideas, to mention a few. Any of 
these are examples of ways we might next lead the world in 
billfish management.
    If the sense of Congress reflected in H.Con.Res. 427 is 
that we must reduce the decline of marlin populations, then we 
must not be afraid to demand more, more of ICCAT, more of our 
trading partners, more of our government and, yes, more of our 
domestic fishing industries, both commercial and recreational. 
To those who say the U.S. has done enough, I would respectfully 
disagree, but there are still places for us to work together in 
the future as well.
    I have attached as part of my testimony a copy of the 
petition filed with the USTR that, if accepted, would require 
them to take action along the same lines as what is requested 
in H.Con.Res. 427. The petition was filed by the Recreational 
Fish Alliance but is quickly gaining support from all sides 
among those who would rather work together where we can and 
only fight where we must. They could use any assistance your 
offices could offer in getting it accepted and moved through 
the system.
    It is critical that the world understand that as a Nation 
we will not sit back and let them go on decimating these 
populations, ignore what international law if not plain common 
sense tells them is the better path. We need you to send a 
clear message expressing our collective resolve to save these 
fish. It is critical to see these stock levels start rising 
again. It gives us hope, it gives us optimism--and that is 
truly the most important thing--to me, my family, my progeny, 
my sport, my industry, my Nation and, ultimately, to the fish 
themselves.
    Thank you for the opportunity to speak.
    Mr. Gilchrest. Thank you, Mr. Weber.
    [The prepared statement of Mr. Weber follows:]

Statement of Rick Weber, Marina Owner and Manager, South Jersey Marina 
                             & Yacht Sales

    Good afternoon Mr. Chairman and Members of the Subcommittee. Thank 
you for the opportunity to address you today regarding H. Con. Res. 
427.
    My name is Rick Weber of Cape May, New Jersey. I am before you 
today as a Conservationist, a Businessman, and an Offshore Angler. My 
comments on 427 itself are relatively brief, and I know you have other 
panel members to give you facts and figures. So I would like to take a 
moment to fully introduce myself in hopes that you can better 
understand its impacts on me, and members of your constituencies that I 
likely represent.
    I've been involved with fish, fishing, and the ocean for as long as 
I can recall. My father was a charter boat captain and I remember going 
down to the docks each day to see what he had caught. Once, he showed 
me a movie he had taken when he went on a trip on someone else's boat, 
a bigger boat, that they could take far offshore.
    They didn't catch much that trip, but it didn't matter. The trip 
alone seemed like an adventure, a long trip to take them to remote 
waters, where few people had ever gone. They hoped to find a lot of 
fish or maybe a big one, but no one knew for sure what they would find. 
The anglers had waited all day by the rods to be ready incase they got 
a bite, or two, or three. The mate kept the cockpit ready while the 
captain scanned the ocean for signs of fish. As a young boy I was 
awestruck by the tale. I had caught marlin fever.
    Ladies and Gentlemen, that spirit is alive today in the heart of 
every marlin fisherman. We are the ultimate optimists. How else can you 
explain getting up at 3 a.m. to then run offshore for 3 or 4 hours, 
trolling around through the day, only to run those same 3 or 4 hours 
back home. All in the hopes of maybe encountering a fish, that for the 
most part we have neither intent nor desire of landing. But that 
optimism has a limit.
    As stocks have declined, as we all know they have, marlin fisherman 
have adapted. We are traveling further. Modern boats and electronics 
help us run to wherever the fishing is hottest, rather than just 
fishing your local grounds. We fish keener. That is, changing our 
equipment and methods to catch more of what we see, since the 
encounters have become less frequent. And ultimately, we have scaled 
down our expectations. Time was when a 3 or 4 fish day was ordinary, 
now it has become note worthy and commendable. We are hoping to catch 
fish on every trip, but that optimism has a limit.
    Each fisherman will decide for themselves how great the likelihood 
need be of catching a marlin to make the time and expense involved 
worthwhile. Some have already decided to get out of the sport. For 
certain, others are right around the corner. We would ask that you use 
what powers you have to help save our sport.
    To me though it is about more than saving a sport. You see over 
twenty years ago that charter boat captain father of mine bought the 
very marina where he kept his boat, and not long thereafter a second 
marina. We have as a family (That is mother, father, sister, 
grandfather, both aunts, both uncles, and most of my cousins) spent 
over two decades building a business centered around one niche market, 
the East Coast marlin fisherman.
    We have sold them boats, homes, tackle and outfitting. We have 
stored, serviced, financed, and even insured their boats. We have 
hosted them for parties, tournaments, and rendezvous. Again, I'll let 
others give you the industry values, I want you to understand the 
mindset of the consumer. When these people catch that marlin fever, 
when they decide to jump into the marlin fishing scene, they do it with 
both feet. They buy things, they hire people, they contract services, 
they contribute to the industry and the national economy as a whole. 
For the most part they have continued to do it despite the decline in 
the populations. But make no mistake, each one that leaves, takes 
thousands if not millions of current and future dollars of spending 
with them.
    My family's livelihoods along with thousands of other people's and 
their family's are inextricably tied to the health of the white and 
blue marlin stocks. Think for a moment of the number of people behind 
every offshore trip; boat builders, sellers and outfitters; marina 
operators; dock attendants; bait and tackle suppliers; captains and 
mates. And the fuel behind this economic engine? The optimism that 
today will be a great day of fishing. We would ask that you use what 
powers you have to help save our industry.
    Anyone who has spent any time at all around these sleek, powerful, 
nimble animals can hardly help but become a conservationist. Following 
in the footsteps of that same charter captain, who spent many years as 
a director of The Billfish Foundation and was instrumental in the 
founding of the Recreational Fishing Alliance, I am currently a 
director of the National Coalition for Marine Conservation and last 
year accepted a nomination to the Billfish Advisory Panel to NMFS. We 
get involved with these groups and enter the national discussion and 
debate because we refuse to believe that the fate of the marlin is cast 
in stone.
    We are intent on saving our sport and our industry, not for 
ourselves but for our children, and our children's children, and 
perhaps yours too. That they too might know the excitement of an 
outrigger clip snapping or the frustration of a mistimed backlash or 
the simple sheer joy of setting off early one morning on an adventure, 
full of optimism of what the day might bring. For these next 
generations, we would ask that you use what power you have to help save 
our marlin.
    That brings us to today's topic, 427. Let me start by thanking you 
for this resolution. Billfish conservation in general is a slow moving 
cause, where progress is measured in inches rather than yards. I'm sure 
that each of us involved has, at one time or another, wondered if we 
were getting anywhere, whether we were just going through the motions. 
The fact that you and your staffs were willing to spend time, energy, 
and political capital on this resolution is re-energizing, a glimmer of 
light at the end of the tunnel. We are happy to have your attention.
    Would I change 427? I suppose we all have our own biased agendas 
and there are things I might like to take further. But, I'm told 
politics is the art of compromise, and I certainly don't see anything 
here that would cause me to oppose the resolution. Am I then supportive 
of 427? Frankly, I am supportive of any initiative that might help the 
long term health of my sport and my industry and promote the 
conservation of marlin. This resolution if acted upon certainly would 
be helpful. So yes, I support and encourage you to support 427 as 
written. Am I hopeful for 427? That friends lies with you. This is not 
a topic that you will be able to address with a few choice words and 
hope it will resolve itself from there. I am here to tell you it will 
not. It will take some resolve from this body to move this agenda 
forward.
    The international nature of the resolution is sure to help it pass. 
One thing that the environmental, commercial, and recreational sectors 
all agree on is that by almost any test, U.S. fisheries are cleaner, 
more selective, and more closely monitored than any other in the world. 
The oceans would be a better place if more nations would follow our 
examples. Does that mean, though, we should all park our domestic 
agendas, or stop striving for cleaner fisheries? To the contrary, once 
we have people following our lead, it is more important than ever that 
we keep raising the bar, that we keep pointing the way to sustainable 
fisheries.
    In the past year your have considered so many things that would be 
beneficial to the nations billfish. You have looked at Congressman 
Saxton's rolling closures, Congressman Hunter's total closures, 
Congressman Farr's ecosystem management, and Chairman Gilchrist's 
bycatch reduction, to mention a few. Any these are examples of ways we 
might next lead the world in billfish management.
    If the ``Sense of Congress'' reflected in 427 is that we must 
reverse the decline of marlin populations, then we must not be afraid 
to demand more. More of ICCAT. More of our trading partners. More of 
our government. And yes, more of our domestic fishing industries. We 
all understand that you have started where there is the greatest 
consensus. The important thing to me is that you have started.
    To those who say the U.S. has done enough, I would respectfully 
disagree, but there are still places for us to work together in the 
future as well. I have attached, as part of my testimony, a copy of a 
petition filed with the United States Trade Representatives that, if 
accepted, would require them to take action along the same lines as 
what is requested in 427. The petition was filed by the Recreational 
Fishing Alliance, but is quickly gaining support from all sides amongst 
those who would rather work together where we can and only fight where 
we must. They could use any assistance your offices could offer in 
getting it accepted and moved through the system.
    It is critical that the world understand that as a nation we will 
not sit back and let them go on decimating these populations, ignoring 
what international law if not common sense tells them is the better 
path. We need you to send a clear message expressing our collective 
resolve to save these fish. That we will not allow them to further harm 
my industry nor undermine the conservation efforts being made by our 
domestic commercial fisheries. We need to see those stock levels start 
rising again. It gives us hope. It gives us optimism, which is truly 
the most important thing, to me, my family, my progeny; my sport, my 
industry, my nation; and ultimately to the fish themselves.
    Thank you for the opportunity to speak.
                                 ______
                                 
    Mr. Gilchrest. Mr. Hemilright, the gentleman from North 
Carolina. Walter Jones asked me to give you his best. He is 
tied up in a meeting with Senator Warner about some defense 
issues, but I am passing along his goodwill, and he will read 
your testimony. You may begin, sir.

  STATEMENT OF DEWEY HEMILRIGHT, CAPTAIN OF THE F/V TAR BABY, 
                   COMMERCIAL LONGLINE VESSEL

    Mr. Hemilright. Thank you, Mr. Chairman and members of the 
Subcommittee, for the invitation and opportunity to speak 
concerning H.Con.Res. 427. I am Dewey Hemilright, captain of 
the 42-foot longline fishing vessel Tar Baby of North Carolina 
that fishes 3 to 75 miles offshore from Montauk, New York, to 
Mayport, Florida, depending upon the seasons and weather 
conditions.
    I have many questions and reservations about the 
effectiveness of this resolution in its present form. We must 
not forget that the U.S. alone cannot rebuild highly migratory 
fish stocks. However, as we now see with the north Atlantic 
swordfish, we can reach this worthy goal with the cooperation 
and compliance of harvesters throughout the range of a species.
    The U.S. Atlantic pelagic longline fisherman has led the 
way with enormous sacrifice under both international and 
domestic conservation measures to rebuild this important 
species. I bring your attention to the fact that north Atlantic 
swordfish has recovered to 95.8 percent of optimal biomass 
before the imposition of overly extensive closures placed 
against only commercial longline fisherman in the U.S. waters.
    My basic concern with this resolution is that it is far too 
narrow. Focusing primarily upon marlin ignores the overall 
compliance problem within ICCAT and could isolate our U.S. 
ICCAT delegation. Let's face facts. No matter how hard we may 
try, other cultures will not accept a higher priority for 
marlin when they consider other food fish species much more 
important. The United States should make every effort to ensure 
international compliance for all ICCAT conservation measures, 
not just marlin. A broader approach could also provide greater 
conservation for marlin.
    I think the combination of compliance enforcement, coupled 
with the existing marlin recommendations that my fishery helped 
to achieve and, more importantly, the elimination of illegal, 
unregulated and unreporting fishing for ICCAT species will end 
Atlantic marlin overfishing and allow these important species 
to rebuild. But other countries are not going to accept 
international trade prohibition for marlin alone.
    The Senate Magnuson-Stevens Reauthorization Staff Draft 
contains an international compliance provision that could 
eliminate all noncompliant ICCAT fish from entering U.S. 
markets. I strongly recommend that Congress work in this 
direction, both to revise this resolution and on future 
implementing legislation. Please end the embarrassing situation 
that allows the U.S. to continue to accept internationally 
pirated fish, ICCAT quota overages and noncompliant, undersized 
fish from foreign fleets into American markets. And, in doing 
so, let's not sacrifice the Atlantic's most efficient and 
conservation-minded pelagic longline fishery.
    In the past, U.S. fisherman could harvest 29 to 34 percent 
of the north Atlantic swordfish using only 8 to 10 percent of 
the overall hook effort for this species. Today, due to cheaper 
imports, many of which are illegally caught, and draconian 
domestic overrestriction, it is unclear whether or not a 
profitable longline fishery can continue.
    The U.S. vessels cannot operate on $2 a pound fish. Sadly, 
it has become politically correct to tradeoff our commercial 
longline fisheries for progress within ICCAT. I caution 
Congress that the loss of this important HMS commercial fishery 
will only weaken the U.S. abilities within ICCAT.
    In ending, I also think that the U.S. commercial ICCAT 
commissioner should have been here today to testify to give 
this Subcommittee an increased understanding of the 
ramifications of this resolution as it applies to ICCAT-managed 
fisheries.
    Mr. Chairman, again I thank you for the opportunity to 
speak.
    Mr. Gilchrest. Thank you, Mr. Hemilright; and stay safe out 
there on the high seas.
    [The prepared statement of Mr. Hemilright follows:]

 Statement of Dewey Hemilright, Captain, F/V Tar Baby, Wanchese, North 
                                Carolina

    Mr. Chairman and Members of the Subcommittee:
    Thank you, Mr. Chairman, and members of the Subcommittee for the 
invitation and opportunity to speak concerning HR 427. I am Dewey 
Hemilright, Captain of the 42 ft. longline fishing vessel Tar Baby of 
North Carolina that ranges, depending upon the season and weather 
conditions, from 3 to 75 miles offshore from Montauk, NY to Mayport, 
FL.
    Before I begin, I must note with disappointment that the U.S. 
Commercial ICCAT Commissioner has not been asked to be here today to 
testify in order to give this subcommittee an increased understanding 
and his informed insight of the potential ramifications of this 
proposed resolution as it applies to the U.S. and ICCAT. With all due 
respect to Dr. Hogarth and Mr. Hayes, Mr. Glenn Delaney is the only 
current ICCAT Commissioner who has been directly involved at the ICCAT 
negotiating table, working on conservation for all Atlantic highly 
migratory species in recent years. This subcommittee does itself a 
disservice by his exclusion from these discussions and proceedings.
    I also note that I am proud to be a member of the North Carolina 
Fisheries Association and the Blue Water Fishermen's Association. Our 
fishermen catch a variety of fresh domestically-caught fish for 
American seafood consumers who cannot or choose not to catch their own. 
We proudly carry on and wish to continue this important heritage of our 
Nation's coastal communities.
    The U.S. Atlantic pelagic longline fishery has led the way with 
enormous sacrifices for both international and domestic conservation 
measures to rebuild Atlantic highly migratory species. I strongly note 
that swordfish have returned to 95.8% of optimal biomass prior to the 
imposition of the overly extensive small swordfish closures placed only 
against commercial fisherman in U.S. waters.
    In the past, U.S. longline fishermen harvested up to 29 to 34 
percent of the N. Atlantic swordfish using only 8 to 10 percent of the 
overall hook effort for this species. Today, due to cheap, many of 
which are illegally caught imports and draconian domestic over-
restrictions, it is unclear whether or not a profitable longline 
fishery can even continue. U.S. vessels cannot operate on $2.00 per 
pound fish.
    Today, our fishery is so over-restricted that we have lost the 
ability to harvest our full ICCAT quota on an annual basis. We're 
working hard through cooperative bycatch reduction research to develop 
gear modifications that will allow some of these domestic restrictions 
to be eased. Sadly, it has become politically correct to trade off our 
commercial longline fishery for progress within ICCAT. I caution 
Congress that the loss of it's most important HMS commercial fishery 
will only weaken the U.S.'s abilities within ICCAT.
    We must not forget that the U.S. alone cannot rebuild highly 
migratory fish stocks. However, as we now see with North Atlantic 
swordfish; with the cooperation and compliance of harvesters throughout 
the range of a species, we can reach this worthy goal.
    I have many questions and reservations about the effectiveness of 
this resolution in its present form.
    My basic concern with the resolution is that it is too narrow. 
Focusing primarily upon marlin, ignores the overall compliance problems 
within ICCAT and isolates our U.S. Delegation because no matter how 
hard we may try, other cultures will not accept a higher priority for 
marlin, than what is to the world, more important food-fish species. 
The United States should make every effort to ensure international 
compliance with all ICCAT conservation measures, not just marlin.
    A broader approach would also provide greater conservation for 
marlin because I think the combination of compliance with the existing 
marlin recommendations that my fishery helped to achieve and more 
importantly, the elimination of Illegal, Unregulated and Unreported 
Fishing (IUU Fishing) for ICCAT species will end Atlantic marlin 
overfishing and allow these important species to our country to 
rebuild. But other countries are not going to accept international 
trade prohibitions for marlin alone.
    The Senate Magnuson-Steven's Reauthorization Staff Draft contains 
an international compliance provision that could eliminate all non 
compliant ICCAT fish from entering U.S. markets. I strongly recommend 
that Congress work in this direction, both to revise this Resolution 
and on future implementing legislation. Please end the embarrassing 
situation that our country continues to accept internationally pirated 
fish, ICCAT quota overages and undersized tunas from foreign fleets 
that are not adhering to ICCAT conservation measures. And in doing so, 
let's not sacrifice the world's most efficient and conservation minded 
pelagic longline fishery.
    Before we start to embargo any member or nonmember country, I have 
to ask ``What will the U.S. pelagic longline fisherman give up this 
time to achieve these goals at ICCAT?'' Will it be more quota or more 
closures because the swordfish fishery has become the bargaining chip 
for the U.S. position for the past several years? We haven't filled the 
U.S. ICCAT swordfish quota in recent years due to unilateral 
restrictions. Last time, we gave our unharvested quota to Japan for 
marlin conservation and to ensure the security of our long-term country 
share. Who gets it this year?
    Also, as an example of just how bad compliance within ICCAT's own 
members can be, and the weakness of our U.S. Delegation's ability to 
respond to member noncompliance; last year at ICCAT we learned that the 
E.U. exceeded their bluefin ICCAT quota by 15,000 metric tons. NMFS's 
response to its constituencies was that they were glad the compliance 
reporting process worked. Would this resolution address these types of 
non-compliance by member nations?
    It is critical that we are careful with the wording of Atlantic 
marlin mortality, because domestically, the NMFS turns a blind eye 
regarding the U.S. recreational industry's Atlantic marlin mortalities. 
To the other countries, this may seem to be hypocritical and could hurt 
the U.S.'s overall positions. How can we go to ICCAT and demand more 
marlin conservation when even the U.S. does not accurately report its 
own mortalities? Should not these mortalities be included in ICCAT 
stock assessments? Yes'the U.S. recreational landings are reduced but 
its catches, both in and outside of tournaments, are not,. This year in 
14 days, Mid-Atlantic tournaments reported catching and releasing more 
than 1,550 marlin.
    A recently filed petition to list white marlin as endangered under 
the ESA provides documentation that U.S. recreational post-release 
mortalities may exceed landings by all Atlantic harvesters. The 
petitioners have presented data regarding the level of impact on the 
species caused by the recreational/sportfishing sector.



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]



    As the above indicates, the U.S. might be wiser to get its data 
straight before pointing fingers elsewhere.
    As a U.S. pelagic longline fisherman, I think this resolution would 
be great if the language included swordfish and BAYS (Bigeye, Albacore, 
Yellowfin and Skipjack) tunas as the highest priority just like the 
marlins since the U.S. is using our swordfish underharvest as a trade-
off for marlin conservation.
    In conclusion, I think that if properly crafted, this resolution 
could show the other countries that the U.S. is strongly committed to 
the goal of rebuilding these fish stocks to sustainable levels by 
holding all fishermen accountable. If this subcommittee were to broaden 
and revise this resolution to include my suggestions, it would help to 
ensure the reality of rebuilding then sustaining healthy ICCAT species 
for a brighter future for all Atlantic HMS fisheries, commercial and 
recreational.
                                 ______
                                 
    Mr. Gilchrest. The next witness Mr. Dunn. We were looking 
for your name.

 STATEMENT OF RUSSELL DUNN, ASSISTANT DIRECTOR, OCEAN WILDLIFE 
                 CAMPAIGN, THE AUDUBON SOCIETY

    Mr. Dunn. Thank you, Mr. Chairman.
    Mr. Chairman and members of the Subcommittee, thank you for 
inviting me to testify on H.Con.Res. 427. My name is Russell 
Dunn. I am Director of Government Relations for Audubon's 
Living Oceans Program and Assistant Director of the Ocean 
Wildlife Campaign, which is an organization that works 
exclusively on marlin, swordfish, tunas and other highly 
migratory species.
    Before I begin my formal testimony, I want to acknowledge 
and thank you for the tremendous leadership of the Chairman, 
Mr. Saxton, Mr. Pallone and others on the Committee regarding 
fisheries conservation over the years.
    As an advocate for marlin conservation, I am pleased that 
marlin are receiving attention at such high levels. Many of 
these species are in desperate shape. White marlin have the 
distinction of being in the worst shape of any ICCAT-managed 
species. According to ICCAT data, overfishing has driven white 
marlin populations down to less than 15 percent of healthy 
levels, while fishing pressure for white marlin continues to be 
at least seven times that which the population can sustain.
    For blue marlin, the immediate situation is slightly less 
dire, although the long-term outlook is also grim. The 
political nature of ICCAT has allowed mismanagement to rise to 
an art form. Science is too often ignored, and decisions based 
on short-term economics are the rule rather than the exception. 
The result is that the majority of stocks under ICCAT's purview 
are overfished. ICCAT's management has been so poor that it is 
now often referred to as the International Conspiracy to Catch 
All the Tunas, rather than by its proper name.
    The migratory nature of marlin and other species such as 
swordfish and tunas unfortunately demands international 
management as these animals cross international boundaries and 
ocean basins. While the United States has been complicit in bad 
decisionmaking on occasion, the U.S. and Canada are the leaders 
in conservation in this forum bar none. Rarely have other 
nations outside the U.S. and Canada demonstrated the political 
will to do the right thing when under pressure from their 
domestic commercial fishing interests, pressure that is 
increased by the $1.1 billion in subsides pumped into ECD 
fishing fleets annually.
    The U.S. has worked to improve compliance at ICCAT but can 
and must do more to ensure compliance for all ICCAT species. 
H.Con.Res 427 can be a positive and appropriate step in that 
direction.
    The decline of marlin and other ocean giants is directly 
attributable to rampant overfishing. Put in simplest terms, 
these species have been, and many continue to be, caught and 
killed faster than they can reproduce.
    The Atlantic wide overfishing that is negatively affecting 
the health of fish populations and U.S. commercial and 
recreational fishing interests is primarily the result of a 
number of factors, including ICCAT member nations rejecting 
scientific management recommendations, noncompliance with ICCAT 
recommendations, including the nonreporting of data, IUU 
fishing, and bycatch. And it is bycatch that represents the 
largest single threat to marlin, as marlin are primarily caught 
and killed as bycatch in fisheries targeting swordfish and 
tuna.
    There is no single solution to the problems facing marlin 
and other migratory species that ICCAT manages. If we are to 
save marlin, we must find a way to reduce bycatch and bycatch 
mortalities.
    The most effective available mechanism to do so is to close 
areas of the ocean to commercial fishing activities of all 
nations where and when marlin bycatch is highest. The U.S. has 
preliminary data showing that domestic area closures intended 
to reduce bycatch of juvenile swordfish and bluefin tuna seem 
to be effective, so there is every reason to believe that 
international area closures may also be effective.
    The U.S. has provided leadership on conservation and 
compliance use through unilateral actions and pressing for 
multilateral cooperation and should continue to do both. Most 
problems facing Atlantic HMS will have to be solved through 
multilateral agreements and actions, given the nature of the 
fisheries under discussion. Without downplaying the importance 
of international cooperation, however, appropriate unilateral 
actions such as those outlined in H.Con.Res. 427 may contribute 
to improved compliance. We believe that H.Con.Res. 427 can help 
move ICCAT member nations toward improved compliance with 
conservation recommendations by sending a strong message that 
healthy fish stocks and robust fisheries are a national 
priority.
    In conclusion, we support the spirit and intent of 
H.Con.Res. 427 as well as much of its specific language. We are 
also supportive of the RFA's 301 petition and similar actions 
on this issue.
    We believe that a few amendments would strengthen 
H.Con.Res. 427. Specifically, we suggest that identification 
and implementation of international time and area closures to 
longline fishing activities of all nations where and when 
marlin bycatch is highest should be a top priority; that 
ensuring the continuation of north Atlantic swordfish 
rebuilding plan until recovery is complete in 2009 or before, 
given the miraculous recovery, should be a top priority of the 
delegation; that the resolution should broaden its 
recommendations pertaining to ending IUU fishing to include all 
ICCAT species while maintaining an emphasis on marlin; and that 
the resolution should urge the Secretaries of Commerce and 
State to better document noncompliance with ICCAT 
recommendations to support trade actions, recommend that the 
Secretaries identify those nations fishing in a manner that 
undermines ICCAT conservation mandates in their annual report 
to Congress--which I don't believe has ever been done--and 
recommend that the ICCAT delegation continue to pursue 
multilateral agreements and compliance recommendations through 
ICCAT with renewed vigor.
    Finally, we would urge that H.Con.Res. 427 resolve to urge 
the Secretary of Commerce to attend this upcoming ICCAT meeting 
to clearly signify U.S. resolve on fisheries issues.
    While H.Con.Res. 427 does not by itself solve the problems 
facing Atlantic HMS, it will send a strong message regarding 
the seriousness with which this Nation views fisheries issues. 
It is an important step in the right direction, and we support 
its adoption.
    Thank you for allowing me the opportunity to testify on 
this issue.
    Mr. Gilchrest. Thank you, Mr. Dunn.
    [The prepared statement of Mr. Dunn follows:]

Statement of Russell Dunn, Assistant Director, Ocean Wildlife Campaign 
and Director, Government Relations, Audubon's Living Oceans Program on 
   behalf of the National Audubon Society, Natural Resources Defense 
  Council, The Ocean Conservancy, Wildlife Conservation Society, and 
                          World Wildlife Fund

    Mr. Chairman and members of the Committee, thank you for inviting 
me to testify on H. Con. Res. 427 and its underlying issues. My name is 
Russell Dunn, I am the Director of Government Relations for Audubon's 
Living Oceans Program, and Assistant Director of the Ocean Wildlife 
Campaign (OWC). The OWC is an entity that represents six national 
conservation organizations, including the National Audubon Society, 
National Coalition for Marine Conservation, Natural Resources Defense 
Council, The Ocean Conservancy, Wildlife Conservation Society, and the 
World Wildlife Fund on issues pertaining to marlin, sharks, swordfish, 
tuna and other highly migratory species. I have worked on these issues 
for the past six years and have been a member of NOAA's Federal 
Billfish Advisory Panel for five of the last six.
                              Introduction
    As an advocate for marlin conservation, I am pleased that marlin 
are receiving attention at such high levels. The migratory nature of 
marlin and other species, such as swordfish and tunas, demands 
international management as these animals cross international 
boundaries and ocean basins. The political nature of the International 
Commission for the Conservation of Atlantic Tunas (ICCAT) has allowed 
mismanagement to rise to an art form. Science is too often ignored and 
decisions based on short-term economic considerations are the rule 
rather than the exception. ICCAT management has been so poor that it is 
often referred to as the International Conspiracy to Catch All the 
Tunas rather than by its correct name. While the United States has been 
complicit in bad decision making on occasion, the U.S. and Canada are 
the leaders in conservation in this forum bar none. Rarely have other 
nations demonstrated the political will to do the right thing when 
under pressure from their commercial fishing interests. The U.S. must 
do more to ensure compliance with ICCAT recommendations for all ICCAT 
species and H. Con. Res. 427 is a positive and appropriate step in that 
direction.
    We support the spirit and intent of H. Con. Res. 427. The United 
States has led ICCAT efforts to halt overfishing of white marlin and H. 
Con. Res. 427 bolsters those efforts. We believe, however, that the 
resolution would more effectively deal with the problems facing marlin 
and other ICCAT species if it were broadened and amended as detailed 
below. To provide context for our suggested amendments, the Committee 
should first look at the array of problems facing marlin and other 
ICCAT species.
                          State of the Stocks
    Atlantic white and blue marlin, top predators in the marine 
environment, are in desperate condition. In fact, white marlin has the 
distinction of being in the worst shape of any ICCAT managed species. 
According to ICCAT data, overfishing has driven white marlin 
populations down by 90-95% since 1961. They currently stand at less 
than 15% of healthy levels. Further, ICCAT acknowledges that 
overfishing has taken place for at least three decades, that the stock 
is less productive than previously estimated, and that the fishing 
mortality rate inflicted upon the stock is at least seven times that 
which the population can sustain. For blue marlin the immediate 
situation is slightly less dire, although the long-term outlook is also 
grim. Overfishing has reduced blue marlin to 40% of healthy levels and 
the stock is subjected to four times as much fishing pressure as it can 
withstand. Unfortunately, this situation is not unique to these two 
species. In fact, the majority of species under ICCAT's jurisdiction 
are considered overfished. In 2001, after nearly forty years of 
mismanagement, 8 of 15 stocks managed by ICCAT were considered 
overfished (white marlin, blue marlin, bigeye tuna, Northern albacore, 
West Atlantic bluefin tuna, East Atlantic bluefin tuna, North Atlantic 
swordfish and South Atlantic bluefin tuna). The status of four species 
under ICCAT's purview was unknown (skipjack tuna, sailfish, spearfish, 
and Mediterranean swordfish) and just three stocks were still 
considered healthy (yellowfin tuna, southern albacore, south Atlantic 
swordfish).
             Problems Facing Marlin and Other ICCAT Species
    The decline of marlin and other ocean giants is directly 
attributable to rampant overfishing. Put in simplest terms, these 
species have been, and many continue to be, caught and killed faster 
than they can reproduce. The Atlantic-wide overfishing, which is 
negatively affecting U.S. commercial and recreational fishing fleets, 
is the result of a number of factors including:
ICCAT member nations reject scientific management recommendations
    Short-term economic interests of fishing fleets of various nations 
frequently prevent ICCAT members from accepting management 
recommendations made by ICCAT's scientific committee when those 
recommendations might result in reduced economic opportunities. Massive 
European subsidies of more than one billion dollars annually contribute 
to and sustain political pressure for national delegations to bring 
home more fish no matter the cost to the environment.
    For example, in 2001, the European Community (EC) refused to accept 
clear and unequivocal scientific advice indicating that a quota of 
25,000 MT or less is necessary to halt the decline of East Atlantic and 
Mediterranean bluefin tuna. The EC demanded a quota (33,925 MT) 35% 
above scientific recommendations (25,000 MT) on a stock that is 
estimated to stand at just 19% of 1970's levels. <SUP>1</SUP> In 2001, 
the Europeans did not object to the scientific recommendation of 25,000 
MT or less based on scientific grounds, but rather that at that level, 
there were not enough bluefin tuna to divide among the nations that 
fish on these stocks. Economic hardship for domestic fishing interests 
was the driver behind the EC's unacceptable position. The United States 
admirably rejected the EC proposal, but unfortunately, the meeting 
ended deadlocked with no formal quota being established for eastern and 
Mediterranean bluefin tuna.
---------------------------------------------------------------------------
    \1\ However, no population assessment has been conducted for 
eastern Atlantic and Mediterranean bluefin since the mid-1990s because 
nations fishing on these stocks repeatedly failed to report the 
necessary data in time.
---------------------------------------------------------------------------
Non-compliance with ICCAT recommendations and lack of consequences
    Non-compliance with ICCAT conservation recommendations and basic 
membership obligations by member and non-member states contributes to 
overfishing and prevents or retards recovery of depleted species. Non-
compliance includes, among other things, exceeding catch quotas, 
landing undersized fish, and the failure of states to submit accurate 
data in a timely manner. The lack of consequences for non-compliance in 
all but a handful of examples contributes to ongoing and repeated 
violations of ICCAT recommendations and undermines data collection 
schemes.
    Recent examples of non-compliance include:
    1995-1998--Spain and Portugal exceed undersized swordfish fish 
tolerance by two and three times legal limit.
    1999--Forty Percent of contracting parties reporting white marline 
landings exceed white marlin catch limits.
        More than one-third of contracting parties reporting blue 
        marlin landings exceed blue marlin catch limits
    2000--One-third of contracting parties reporting white marlin 
landings exceed white marlin catch limits.
        Thirty one percent of contracting parties reporting blue marlin 
        landings exceed blue marlin catch limits.
    1999-2001--The United States was in violation of ICCAT Compliance 
Recommendation 97-12 regarding satellite-based vessel monitoring 
systems from 1999-2001.
    2001--The vast majority of contracting parties failed to meet the 
most basic obligations for providing data. Only six contracting 
parties, including the U.S., submitted their reporting tables on time, 
and of these only four reported on minimum size requirements.
    In none of these cases was punitive action taken.
    As ICCAT attempts to address non-compliance, states seek to avoid 
penalties by non-reporting, or filing false reports. Each year 
compliance tables are increasingly blank or report zero catch landed 
for nations with histories of non-compliance. Despite numerous 
violations by many nations, only non-contracting parties and Equatorial 
Guinea have been singled out for punishment. In most of these cases, 
the imposition of a ban on the importation of tuna products from these 
states was enough to result in corrective action being taken by the 
offending nation. This demonstrates that when multilateral enforcement 
mechanisms are applied, compliance with ICCAT conservation measures is 
the result. However, the general lack of consequences for nations 
violating ICCAT recommendations contributes to repeated violations. 
Punishment is the exception rather than the rule, and this allows the 
rewards for cheating putting illegal fish into the market stream'to 
substantially outweigh the consequences. Illegal fish in the market 
stream disadvantage U.S. fishermen and undermine conservation. Passage 
of H. Con. Res. 427 can demonstrate U.S. resolve on compliance issues.
3) Bycatch
    The largest threat to the survival of marlin is bycatch'the 
catching and killing of non-target and or undersized species during 
fishing operations not inappropriate regulation or non-compliance. 
Marlin are usually caught as bycatch in the directed commercial fishery 
for swordfish and tunas. No nation's commercial fleet intentionally 
targets Atlantic white or blue marlin. As such, new approaches to 
reducing marlin bycatch must be applied. While no single mechanism can 
rebuild marlin, we believe that the best available mechanism to limit 
marlin mortality and halt their precipitous decline is to identify 
marlin bycatch hotspots and close those areas to commercial fishing 
activities during periods of highest bycatch.
    The United States has begun to utilize area closures to reduce 
bycatch in HMS fisheries. Recently implemented domestic time and area 
closures intended to reduce swordfish bycatch appear to have decreased 
dead discards by roughly 40 percent in the pelagic longline fishery. 
<SUP>2</SUP> For the U.S. fishery alone, this means that roughly 10,000 
to 15,000 fewer undersized North Atlantic swordfish are discarded dead 
every year (using 30 and 40 lbs average weight). The technique has also 
worked well to reduce bluefin tuna discards. The National Marine 
Fisheries Service (NMFS) has concluded that an annual one month (June) 
closure of the Mid-Atlantic Bight to pelagic longlines is effective at 
reducing bluefin tuna discards, while not reducing overall landings. A 
comparison of discards in the area for the two years preceding the 
annual June closure with discards in the area for the first two years 
of implementation indicates a decline in discards of 84 percent. While 
there is strong evidence that area closures can be effective in 
reducing discards, it is too early to eliminate other regulations 
intended to reduce mortality of small fish such as minimum size 
restrictions.
---------------------------------------------------------------------------
    \2\ This is preliminary data based on only one year of data. 
Effectiveness may be shown to vary in future years.
---------------------------------------------------------------------------
4) Illegal Unreported, Unregulated Fishing (IUU fishing)
    IUU fishing poses a tremendous threat to the sustainability of fish 
populations and legitimate fishing interests in the Atlantic and around 
the globe. ICCAT estimates that the IUU fleet fishing for Atlantic 
highly migratory species is now approaching the size of the legitimate 
ICCAT sanctioned fleet. It is my understanding that Japan has 
identified more than 330 IUU vessels fishing the high seas. The 
uncontrolled mortality inflicted by the IUU fleet grossly undermines 
the effectiveness of ICCAT conservation measures and must be dealt with 
quickly and effectively. ICCAT is addressing this issue by identifying 
these vessels and placing them on a ``black list'', developing fish 
tracking mechanisms to avoid purchasing from IUU vessels, working with 
nations to discourage the registry of flag of convenience vessels by 
ICCAT member nations, and developing a ``white list a list of properly 
documented vessels registered with ICCAT. The United States should 
continue to do all it can to put an end to IUU fishing.
                               Solutions
    There is no single solution to the problems facing marlin and the 
other highly migratory species that ICCAT manages. Most problems will 
have to be solved through multilateral agreements and actions given the 
nature of the fisheries under discussion. However, appropriate 
unilateral actions may, in some cases, contribute to improved 
compliance. We believe that H. Con. Res. 427 can help move ICCAT member 
nations toward improved compliance with ICCAT conservation 
recommendations by sending a strong message that healthy fish stocks 
and robust fisheries are a national priority.
                            H. Con. Res 427
    We support H. Con. Res. 427, but believe it can be made more 
effective and should be broadened in scope.
Resolution 1)
    We support the sprit and intent of resolution one, but believe it 
should be amended to reflect additional priorities. In our opinion, 
establishment of large-scale commercial time and area closures to 
reduce marlin bycatch and continuation of the international rebuilding 
plan for North Atlantic swordfish and should share equal priority with 
the general goal of marlin conservation expressed in resolution number 
one.
    As the committee has heard, the population of Atlantic white marlin 
is collapsing. To try and slow its collapse, ICCAT, led by the U.S. in 
2000, adopted a mortality reduction plan for white and blue marlin. 
This plan requires a 67% reduction and 50% reduction in mortality, 
respectively, over previous levels (1996). The 2000 recommendation also 
requires that rebuilding plans for white and blue marlin be established 
at the 2002 meeting. <SUP>3</SUP> Although a new population assessment 
has been done for white marlin, it has not been finalized by ICCAT's 
scientific committee. Because only one year of data will be available 
at the reduced mortality levels stipulated by the 2000 recommendation, 
it will be difficult if not impossible to judge the effectiveness of 
those measures. While we want marlin rebuilding plans established as 
soon as possible, it seems unlikely that a rebuilding plan can be 
established this year with the limited new data available on white 
marlin. Therefore, at the very least the U.S. should ensure that (1) 
mortality levels do NOT increase during the next few years while 
additional data are collected, and (2) progress is made on identifying 
and establishing bycatch hot spot closures in the Atlantic. Collection 
and examination of marlin bycatch data to identify appropriate areas 
for closure to commercial fishing activities is essential to saving 
marlin. There is no debate that international time and area closures 
will have to be part of any rebuilding plan for marlin. As such, we 
recommend that the committee amend H. Con. Res. 427 to make it a 
priority for the U.S. delegation to establish international time and 
area closures to longline fishing in areas where, and during times 
when, marlin bycatch is highest.
---------------------------------------------------------------------------
    \3\ A subsequent recommendation adopted by ICCAT in 2001 delayed 
the development of a rebuilding plan for blue marlin beyond 2002.
---------------------------------------------------------------------------
    In 1999, North Atlantic swordfish populations stood at levels 
capable of supporting only 58% of the maximum sustainable catch (MSC). 
At that time, ICCAT adopted an U.S. sponsored 10-year rebuilding plan 
for North Atlantic swordfish, however, the agreement established 
specifics for only the first three years. During the 2002 ICCAT meeting 
(October 28th-Nov 4th) the next phase of the rebuilding plan must be 
negotiated. The assessment for North Atlantic swordfish has just been 
completed, and it appears to have made a dramatic recovery. Modeling 
shows that populations have recovered to more than 90 percent of 
healthy levels. It should be understood that these results have broad 
confidence intervals, so the actual recovery may be somewhat less 
robust. It is important to know that the North Atlantic swordfish 
rebuilding plan contained strict penalties for non-compliance, which 
were generally complied with, as suggested in HCR 427's fourth 
resolution.
    This remarkable recovery demonstrates that when legitimate 
scientific advice is adhered to, and nations comply with appropriate 
conservation recommendations, fisheries management can work. This 
success should strengthen our resolve to improve compliance.
    With continued diligence, North Atlantic swordfish can be fully 
rebuilt in the next few years, bringing with it improved catches for 
U.S. commercial and recreational fishermen. As swordfish populations 
rebuild, now is not the time to allow excessive increases in catch that 
could jeopardize the rebuilding schedule. Any increase in the total 
allowable catch agreed to by ICCAT this year should be used to offset 
existing problems and provide quota to nations newly entering ICCAT 
(Mexico), rather than being used as a general increase for all fishing 
nations. Because it appears that full recovery may be possible in less 
than ten years with no further sacrifices, we recommend that the 
committee amend H. Con. Res. 427 to make it a top priority for the U.S. 
delegation to ensure the continuation of the swordfish rebuilding plan 
until recovery is complete in 2009, or before.
Resolution 2)
    We fully support the second resolution and all efforts to end 
illegal unregulated and unreported fishing. We recommend that 
resolution two be broadened to specifically include all species, while 
maintaining an emphasis on marlin.
Resolution 3)
    We fully support the third resolution and agree that all 
appropriate diplomatic mechanisms, relevant international laws and 
agreements, and other appropriate mechanisms should be used to ensure 
compliance with ICCAT conservation recommendations for all species 
under its jurisdiction.
Resolution 4)
    We fully support resolution four and agree that the Commission 
should make the inclusion of enforcement mechanisms an integral part of 
all conservation recommendations for all species.
Resolution 5)
    We fully support the spirit and intent of resolution five, but 
believe it should be amended to1) promote flexibility in the imposition 
of trade sanctions by requiring the Secretary to build a record of non-
compliance to support trade actions,2) recommend that the Secretaries 
of Commerce and State identify those nations fishing in a manner that 
undermines ICCAT conservation mandates in their annual report to 
Congress, and 3) recommend that the U.S. ICCAT delegation pursue 
multilateral agreements and compliance recommendations through ICCAT 
with renewed vigor.
    While the need to conserve many Atlantic highly migratory species 
is urgent, the U.S. must be careful in reacting to apparent non-
compliance. There are many scenarios that can result in inadvertent 
``non-compliance'' in a given year, particularly with regard to the 
implementation of new conservation recommendations. The United States 
must be careful not to punish those states that sporadically and 
unintentionally fail to comply with a particular ICCAT conservation 
recommendation. Rather, the U.S. should focus on documenting and 
punishing those states which demonstrate a pattern of non-compliance 
with conservation regulations that undermine effectiveness of ICCAT.
    The committee should be aware that if other nations adopt policies 
similar to those detailed in H. Con. Res. 427, the U.S. would have been 
vulnerable to trade sanctions since 1997. The U.S. has been out of, and 
may still be out of compliance with ICCAT Recommendation 96-1 on 
yellowfin and bigeye tunas. This recommendation entered into force in 
August 1997 and requires a minimum of five percent observer coverage 
for all longline trips targeting yellowfin and bigeye tuna. Between 
1997 and 2001, the observer coverage on U.S. pelagic longline vessels 
ranged from 3.1% to 4.2%, never complying with the recommendation. 
While this violation has less severe conservation consequences than 
most of those discussed today, it ostensibly makes the United States 
vulnerable to retaliatory actions.
    The resolution appropriately directs the Secretaries of Commerce 
and State to exercise their authority as established under ATCA. As the 
Committee is aware, ATCA authorizes the Secretary of Commerce, with the 
concurrence of the Secretary of State, to prohibit the importation of 
fish regulated by ICCAT from a country whose fishing vessels are 
fishing in the Convention area in a manner that diminishes the 
effectiveness of ICCAT's recommendations. It further allows the 
Secretary to prohibit entry into the U.S. of fish in any form of those 
species subject to ICCAT regulation which were taken in such a manner 
or circumstance that would tend to diminish the effectiveness of the 
conservation recommendations of the commission.
    ATCA further requires that the Secretary of Commerce identify 
annually those nations whose fishing vessels are fishing or have fished 
in the previous calendar year in a manner that diminishes the 
effectiveness of a conservation recommendation. To the best of my 
knowledge, this has never happened. We believe that ATCA provides the 
tools necessary to enhance compliance with ICCAT recommendations, 
should the Administration have the political will to act.
    Despite the best efforts of the United States now and in the 
future, we must remember that this is an international problem that 
requires an international solution. The United States cannot prevent 
overfishing or rebuild marlin, swordfish, or tunas on its own. The U.S. 
can and should become more diligent in documenting non-compliance and 
identifying nations that fish in a manner that undermines the 
effectiveness of ICCAT, however, we must also continue to pursue 
multilateral agreements and internationally sanctioned compliance 
recommendations if we are to save marlin and other species.
    We believe H. Con. Res. 427 should be amended to urge the Secretary 
of Commerce to attend the upcoming ICCAT meeting. Attendance by such a 
high level Bush Administration official would send a clear and 
unequivocal message to ICCAT members nations that healthy fish stocks 
and fishing industries are a priority for the United States.
                               Conclusion
    In conclusion, we support the spirit and intent of H. Con. Res. 
427, as well as much of its specific language. We believe that amending 
the resolution to include the following points would add significantly 
to its message to ICCAT member nations:
    1) Lidentification and implementation of international time and 
area closures to longline fishing in areas where, and during times 
when, marlin bycatch is highest should be a top priority for the U.S. 
delegation;
    2) Lensuring the continuation of the swordfish rebuilding plan 
until recovery is complete in 2009, or before, should be a top priority 
of the U.S. delegation
    3) Lbroadening recommendations pertaining to ending IUU fishing to 
include all ICCAT species, while maintaining an emphasis on marlin;
    4) La) promoting flexibility in the imposition of trade sanctions 
by requiring the Secretary to build a record of non-compliance to 
support trade actions, b) recommending that the Secretaries of Commerce 
and State identify those nations fishing in a manner that undermines 
ICCAT conservation mandates in their annual report to Congress, and c) 
recommending that the U.S.ICCAT delegation pursue multilateral 
agreements and compliance recommendations through ICCAT with renewed 
vigor; and
    5) Lurge the Secretary of Commerce to attend the 2002 Regular 
meeting of ICCAT.
    ICCAT has, through its actions, demonstrated that it is less than 
fully capable of achieving its conservation mandates. The United States 
has provided leadership on conservation and compliance issues through 
unilateral actions and pressing for multilateral enforcement mechanisms 
and should continue to do so. While H. Con. Res. 427 will not by itself 
solve the problems facing Atlantic HMS, the strong message that it 
sends on behalf of the United States Congress regarding the seriousness 
with which this nation views fishery issues is an important step in the 
right direction. Thank you for allowing me the opportunity to testify 
on this important issue.
                                 ______
                                 
    Mr. Gilchrest. I think someone from the administration is 
here to take that message back to the Secretary for the 
Secretary to attend ICCAT. That might be a good idea. I don't 
know if that has been a recommendation or if he in fact intends 
to attend the meeting, but that would, I guess, send a pretty 
strong signal.
    The basic purpose of this hearing was to determine whether 
or not this resolution would give the U.S. delegation some 
leverage in their discussion with the ICCAT members.
    On the one hand, I think we certainly have an understanding 
from the first panel and the second panel that the rewriting of 
the resolution to be more broad seems to be a unanimous feeling 
among the witnesses. But I know we have covered a lot of ground 
and there is differences of opinions on a lot of things, 
depending on whether you are from the commercial or 
recreational background, what we as a Congress have or have not 
done in the past and what little this resolution might do 
considering the magnitude of the problem.
    So we have listened to all that, we have taken it into 
consideration, and we have been dealing with that over the past 
few years as far as reauthorization of the Magnuson Act is 
concerned.
    I will say that some of the language of the Senate draft, 
because of the House rules, won't work over here. We are 
meeting with them--we continue to meet with them to try to come 
up with a Magnuson Act that not only deals with the domestic 
problems but with the international problems as well.
    I guess I would like to hear from any of you that would 
like to give us your opinion as to whether we should pursue 
this resolution that deals with trade sanctions? And I am going 
to tell you now that the final draft will not just include a 
priority with white marlin. It will be a much broader 
resolution that will deal with the management of the problems 
with bluefin tuna and other species and overfishing. But in 
your opinion is it worth pursuing and how would you change the 
language, what would your specific recommendation be?
    Anybody want to take a crack at that? Mr. Hemilright.
    Mr. Hemilright. As we look back over the last few years, 
when we go to ICCAT, every year the U.S. will gain something 
for conservation, while at the same time compared to other 
countries, we lose something. In this resolution, anything that 
would strengthen wherethe U.S., both recreationally and 
commercially has given up, in the name of conservation, 
anything that would strengthen our position to make all these 
other countries follow the same rules that we have to, I think 
would be very--would be very good, and it also should include 
all the base tunas, anything that we have that is at ICCAT, 
because the U.S. has taken it on the chin real hard for stuff 
when we go over there for our conservation message, and we 
build these stocks. We can't do this alone. We are a minute 
player.
    And I also thank the Congress and this Committee for 
looking at this issue, because it is about time. When we go 
over to ICCAT, let us come home with something for U.S. 
Fishermen, both recreational and commercial, and say, hey, 
y'all boys are doing a good job, and a pat on the back instead 
of always we look at--for instance, the European Union a year 
ago had 15,000 metric tons over their quota. And we come back 
to our citizens and say we are glad the reporting process 
works. Anything that would strengthen what we have been doing 
for conservation measures would be great from my point, and I 
think would be a plus for U.S. citizens.
    Mr. Gilchrest. Thank you. That is an excellent 
recommendation, Mr. Hemilright.
    Mr. Motsko.
    Mr. Motsko. I think we ought to pursue the resolution maybe 
with some word changes, as you suggested, to maybe have 
specifically the highly migratory species, including white 
marlin. Most countries do not really view marlin as a target 
fish, and if we do not even include that name, it may be 
overlooked. So we could include the bluefin tuna, swordfish, 
and white and blue marlin also. But I think they each should be 
mentioned.
    Mr. Gilchrest. All right. Thank you. Another good idea.
    Mr. Dunn.
    Mr. Dunn. Yeah. I would concur with that because marlin is 
not a really important commercial species. Broadening it to 
include all ICCAT species, but maintaining an emphasis on 
marlin is certainly appropriate.
    With regard to pursuing the resolution, I would say 
certainly the answer is yes, that anything which can help raise 
the profile of compliance issues and signify U.S. resolve on 
the issue is totally appropriate. And that is why we are 
supportive of not only congressional action, but the actions by 
private entities such as the 301 petition. And I have heard 
rumors of a Pelly petition action that is up coming as well. So 
I would certainly encourage you to do so.
    Mr. Gilchrest. Thank you very much.
    Ms. Johnson.
    Ms. Johnson. Thank you.
    The trade part of this that goes along with the hard work 
done at ICCAT to get any multinational kinds of things in there 
for trade, that is what works. It has to be things that the 
other countries agree to, and they have. Nobody wants to be 
seen as the conduit for bad things happening. And as long as we 
are going along with the other countries, you know, they are 
all agreeing this is no good to bring in illegal fish; don't 
want to be seen that way. Let's do it.
    And I like Mr. Motsko's idea. I think all the fish should 
be named so that there is no disbelief at all.
    Thank you.
    Mr. Gilchrest. No ambiguity.
    Ms. Johnson. Right. That is the word.
    Mr. Gilchrest. Thank you.
    Mr. Weber.
    Mr. Weber. Not quite full dissent, but hear me out.
    Mr. Gilchrest. Yes.
    Mr. Weber. Of all the species that are under ICCAT's 
purview, white marlin are the worst off. I am afraid of losing 
my marlin back into the pile again. Everything that you have 
said about controlling IUU I am fully in favor of. I have no--
nothing at all against including all of them, and let's get the 
unfair and illegal competition off these people's back. It 
should not be there, and we need to control it.
    To take the most damaged population and lump it back in so 
it will become amalgamated in again concerns me. There is a 
reason that you were acting on white marlin at first. You were 
concerned about that population. You know, it brought up very 
good issues that I am very glad that these people have had a 
chance to express, and I am supportive of everything that they 
have brought up, but let's be careful not to lose white marlin 
back again as part of, ``oh, that is part of HMS, and we are 
doing something about all of HMS.''
    Mr. Gilchrest. Very good. Thank you, Mr. Weber.
    Mr. Saxton.
    Mr. Saxton. First of all, congratulations on having the 
idea to introduce this resolution, and I am very pleased to 
have been able to cosponsor it with you. And I hope that, 
frankly, a resolution like this should be fairly easy to get 
out of the full Committee, if we have another full Committee 
markup, and it should be fairly easy to get to the floor 
because it is not, I don't believe, controversial, and we 
should be able to move quite rapidly.
    I would just like to comment on, Mr. Hemilright, after you 
made the recommendation or told us what you think is going to 
be in the Senate bill, I asked our learned staff why don't we 
do that. And I was quickly informed that due to the fact that 
it is a trade issue, it would then be referred to the Ways and 
Means Committee, which is kind of like going into a deep, dark 
hole.
    And we might try to find a way to pursue something like 
that, because I think it is certainly a great approach and 
would certainly put some economic incentive for people to 
change their behavior, and I think that would be a great idea.
    There have been so many hearings and so many questions and 
conversations held relative to this subject. I am not quite 
sure what kind of questions I could ask beyond what has been 
said, but let me just--let me just inquire with Mr. Dunn, if I 
may.
    Mr. Dunn, I assume that there is broad recognition and a 
whole variety of organizations that you are associated with 
from time to time on one issue or another, on this resolution, 
that broad support in the environmental community for it?
    Mr. Dunn. I think that is an accurate statement, yes.
    Mr. Saxton. OK. And what is your take on other species that 
Mr. Gilchrest and Mr. Weber just had the conversation about?
    Ms. Dunn. On including them in the resolution?
    Mr. Saxton. Other species, yeah.
    Mr. Dunn. I believe that the resolution should be broadened 
out to urge better compliance, improve compliance for all the 
species. But I agree for the reasons I stated before that white 
marlin should--or marlin, both blue and white, should retain a 
particular emphasis. A number of the other species are in bad 
shape, and in my written testimony I note the number of 
species. I document each of the species which is overfished, 
and it is actually literally the majority of ICCAT species are 
considered overfished. There were eight overfished. Four 
species had--their population size was unknown, and 3 of 15 
were considered healthy. So you have 8 of 15 overfished, four 
unknown and three healthy. For a 40-year management period, 
that is a pretty poor record.
    Mr. Saxton. Are any species overfished to the extent of the 
white marlin?
    Ms. Dunn. No.
    Mr. Saxton. Maybe that was the wrong way of asking that 
question. Has the biomass of any species decreased to the same 
magnitude as white marlin?
    Mr. Dunn. Depending on which population assessment you 
follow with regard to the western stock of bluefin tuna, the 
western bluefin tuna at one point was down, I believe, around 
13 percent. It is now believed to be at the lower end estimate, 
at about 19 percent. So it is bumping along the bottom, but not 
quite in as severe shape. The big difference there, right now, 
is the fishing mortality level on marlin. My understanding is 
in the new assessment, the fishing mortality rate is about 
eight times that which the population can actually withstand, 
and with bluefin tuna, it is much closer to the appropriate 
level. I am not quite sure. I haven't seen the new bluefin tuna 
assessment, but it is a much lower rate.
    Mr. Saxton. One of my favorite--one of my least favorite 
charts. It is not my favorite chart. This is one of my least 
favorite charts, shows the population trend of the white 
marlin. On this end, in the 1950's and up until the very early 
1960's, the biomass was 30,000 metric tons. Is that what that 
is? Over 30,000 metric tons, and we are now down to 
approximately 3,000 metric tons. And frankly, when I saw this, 
that is when I got all excited about white marlin. And I saw 
this before the consideration was given to listing them under 
the Endangered Species Act.
    And so, Mr. Chairman, I think we ought to pay attention to 
all species, but there are simply no other--there is simply no 
other species that is in this kind of shape that have 
experienced this kind of continued decline in population. And 
so I think we ought to maybe talk a little bit further about 
whether we ought to broaden this out. I am not sure how I feel 
about it overall, but anyway, that is just a general feeling on 
that topic.
    As all of you know, we have had a variety of approaches to 
try to save the white marlin, and as somebody pointed out, I 
can remember back when I was in the State legislature my 
predecessor Ed Forsythe coming home to a Lincoln Day dinner and 
making a speech about how hard he, and it must have been 
Chairman Magnuson at that time, had worked to put into place 
the 200-mile fishing limit. And they were absolutely elated 
because that was an attempt that finally everybody in this 
country agreed on that was going to begin to turn this problem 
around before it got anywhere near to the extent that it is 
now.
    And then later other conservation efforts were made through 
ICCAT and other international actions. Of course, when this 
situation began to worsen, we tried negotiations between the 
various parties to come up with legislation that everybody 
could live with and almost got there 3 years ago. But it was 
late in the session when we finally got there. It involved the 
same rolling closures that are in the legislation that was 
currently reported from the Resources full Committee, the two 
rolling closures in the mid-Atlantic and some others that were 
actually negotiated back then with the good help of Mr. Hayes 
and others.
    But we continue to try to find an answer to the problem 
that is demonstrated by this chart, and so far we haven't done 
it. And so I know that there are lots of frustrated people. 
Longliners are frustrated, I am frustrated, Rick Weber is 
frustrated, because he sees tragedy around the road, down the 
road in this fishery, and yet we have been unable to find a 
solution. So I hope that we will be able to move forward 
together in some fashion.
    Mr. Chairman, I used to be in business, and we always used 
to say no problem is too big to solve, but this one has eluded 
us so far. And I will continue my efforts to try to work with 
all parties to find a solution. Dave Whaley from the 
Subcommittee staff and I were just talking about Magnuson-
Stevens on the Senate side, and given the time of the year and 
the lateness in the session and the position of the bill in the 
Senate, I don't think it is going anywhere. So we are going to 
be back here in January starting all over again. So it is 
frustrating.
    But thank you all for being here. And, Mr. Weber, you all 
are very articulate and expressed your points of view very 
well, and we thank you all for that.
    Mr. Gilchrest. Thank you, Mr. Saxton.
    Is there any other comment that any of the witnesses want 
to leave with us, some nugget of wisdom that we might take with 
us? I will go to ladies first, Mr. Dunn.
    Ms. Johnson, the lady from Maine.
    Ms. Johnson. Thank you. Mr. Saxton was talking about 
domestic measures, I believe, looking at a chart with--that was 
from an international problem. And I know we are supposed to be 
talking about Resolution No. 427, but I have to answer him back 
and say that we longliners are really very restricted in where 
we can go, and if you put in the rolling closures, which, of 
course, are about the same time when the swordfish are there, 
and we need to catch tuna, too--you have to keep in mind that 
not everybody who wants to eat the fish will go get them, and 
if we buy them from the other countries, we may be just 
supporting the thing that we are trying not to support. So keep 
us in mind, please. Thanks.
    Mr. Gilchrest. Thank you, Ms. Johnson.
    Mr. Dunn.
    Ms. Dunn. Just want to make one comment about the 
longlining industry, and this is in no way supposed to detract 
from the recreational efforts, but the longlining industry has 
really been instrumental in the last few years at ICCAT in 
achieving really major conservation gains in terms of both 
securing the swordfish rebuilding plan as well as getting the 
marlin mortality reduction plan put in place in 2000. That is 
1999 for swordfish and 2000 for the marlin, and they deserve a 
lot of credit. They have given up a lot, and without their 
either acquiescence or active involvement in achieving those 
conservation measures, they really wouldn't have happened.
    So, as a conservation advocate, I spend much time doing 
battle with the longline industry, but they do deserve some 
real recognition for their efforts at ICCAT.
    Mr. Gilchrest. Thank you very much, Mr. Dunn. And like Jim 
said, we have been through a lot of hearings dealing with 
fisheries issues, and I want to tell you, this has been, in my 
judgment, based on your testimony and your feelings toward what 
you do, this has been the best hearing I have had on fisheries 
issues. And it is because of what you believe in, and you put 
your heart and your mind into this issue, and it shows. And so 
we will very seriously take into consideration all of your 
recommendations. And hope for the future, since I think Mr. 
Weber talked about optimism and the future, is that we will 
connect with the international communities so nature's bounty 
will thrive, and all of you will be able to make a good living 
and continue to make a contribution.
    Thank you all very much. The hearing is adjourned.
    [Whereupon, at 5:15 p.m., the Subcommittee was adjourned.]
    [Information submitted for the record follows:]

                  World Wildlife Fund-Press Statement

Recreational Fishing and Conservation Groups Join Forces To Protect 
        Vulnerable Atlantic Marlin and BluefinTuna Congress Urged to 
        Address European Fishing Industry Non-Compliance
    Washington, D.C. (26 September 2002) - World Wildlife Fund (WWF) 
and the Recreational Fishing Alliance (RFA) today announced their 
support for legislation to enforce trade sanctions against nations that 
fail to comply with international regulations to conserve and manage 
depleted stocks of Atlantic marlin and bluefin tuna. This announcement 
came as a prelude to today's hearing at the House Resources 
Subcommittee on Fisheries, Wildlife and Oceans.
    House Congressional Resolution 427, a bill to enforce compliance 
with Atlantic marlin fishing regulations adopted by the International 
Commission for the Conservation of Atlantic Tuna (ICCAT), was 
introduced in Congress by Representatives Wayne Gilchrist of Maryland, 
Walter Jones of North Carolina, and Jim Saxton of New Jersey.
    ``U.S. recreational and commercial fishing organizations have 
considered ICCAT non-compliance in Europe a problem for years and, in 
partnership with WWF, we are tackling this issue head on,'' said James 
A Donofrio, RFA Executive Director.
    The RFA announced that it has asked the Office of the United States 
Trade Representative to investigate illegal practices of the European 
Union (EU) that are injuring Atlantic stocks of blue and white marlin, 
bluefin tuna and swordfish. Under Section 301 of the Trade Act of 1974, 
the President would be required to impose trade sanctions if it is 
determined that the EU has acted unlawfully. The RFA petition, which 
was submitted by Bart S. Fisher of Bryan Cave LLP, Counsel for RFA, has 
been endorsed by the General Category Tuna Association, which 
represents the commercial tuna fishing industry.
    Both WWF and RFA report that the EU is exceeding catch limits for 
Atlantic white marlin and Atlantic bluefin tuna, and has refused to 
take steps to protect juvenile fish. In addition, the RFA petition 
points out that the EU has provided illegal subsidies to its fishing 
industry through its Common Fisheries Policy (CFP) that violate 
international trade agreements.
    ``The EU needs to meet its international obligations. Despite 
ICCAT's recommendations that white marlin landings be reduced to 67 
percent of 1999 landing levels, the EU has increased its white marlin 
landings from 77 metric tons in 1999 to 193 metric tons in 2000,'' said 
Tom Grasso, Director of Marine Conservation Policy at WWF.
    ``Even more disturbing have been the EU failures to enforce the 
binding ICCAT recommendations related to the catch of juvenile bluefin 
tuna, with a 1999 TRAFFIC report revealing that 83 percent of the 
bluefin landed from the Mediterranean, and 51% from the Atlantic, were 
undersized ,'' added Grasso.

                                   - 

</pre></body></html>
